                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDITOF THE CORPORATION FOR
    NATIONALAND COMMUNITY SERVICE
       GRANTS  AWARDED TO THE
    MASSACHUSETTS SERVICEALLIANCE
         OIG REPORT
                  NUMBER
                       06-23




                       Prepared by:

                  Kearney &Company
              4501 Ford Avenue, Suite 1400
                 Alexandria. VA 22302



This report was issued to Corporation management on June 29, 2006. Under
the laws and regulations governing audit foll&-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than December 29, 2006, and complete Its cchective actions by June 29,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                              mezWef7ddoAL &
                                              COMMUNITY
                                              SERVICE=


                  Audit of the Corporation for National and Community Service
                                     Grants Awarded to the
                                 Massachusetts Service Alliance
                                       Audit Report 06-23

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Keamey & Company (Keamey) to perform an audit of grants
awarded to the Massachusetts Service Alliance (MSA). The audit generally covered the
latest two years of performance of eight grants initially awarded during the period June 1,
2000, to January 1, 2005. This report is a revision of the report we issued on April 27,
2006, and deletes Finding 5 to correct factual information.

Funding authorized for these grants totaled about $21.5 million, with costs claimed totaling
about $10.1 million from April 1, 2002, through March 3 1, 2005. The audit identified
questioned grant costs, totaling $35,993, all of which relate to AmeriCorps grants:
00ASCMA022, 03ACHMA001, and 00ASFMA022. Most of these costs were questioned
because documentation was lacking to show that criminal background checks had been
completed for members who had contact with children or because living allowance costs
were not supported by payroll registers. The auditors also questioned non-grant costs of
$25,096 with regard to education awards.

The report also includes five findings (Findings 1 through 4, and Finding 6) with
recommendations to improve compliance with grant requirements and to improve internal
controls. MSA did not agree with all of the findings and recommendations (Appendix A),
and the Corporation intends to address all findings and recommendations in its management
decision (Appendix B). However, the Corporation advised that it considers the lack of a
criminal background check to be a grant compliance issue, not a statutory eligibility issue,
and therefore intends to allow costs questioned for lack of criminal background checks.

The OIG reviewed Keamey's report and related documentation and made necessary
inquiries of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the Consolidated Schedule of Awards and
Claimed Costs, related exhibits and schedules, or conclusions on the effectiveness of
internal controls and compliance with laws and regulations.

Kearney is responsible for its report and the conclusions expressed therein. However, our
review disclosed no instances where Kearney did not comply, in all material respects, with
generally accepted government auditing standards.

This report is a matter of public record, and its distribution is not limited.

                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                                          *                     *
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                           Senior Corps   * AmeriCorps * Learn and Serve America
   AUDIT OF THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
      GRANTS AWARDED TO THE MASSACHUSETTS SERVICE ALLIANCE
                      BOSTON. MASSACHUSETTS

                                             TABLE OF CONTENTS
                                                                                                                        &
SUMMARY AND HIGHLIGHTS
   Background ....................................................................................................................
                                                                                                                            1
   Grant Programs Audited ................................................................................................. 2
   Summary of Results ........................................................................................................
                                                                                                                            3
   Questioned Costs Based on Compliance and Internal Control Issues ............................... 3
    Other Compliance and Internal Control Matters ..............................................................            4
    Costs Questioned ............................................................................................................
                                                                                                                            4
    Purpose and Scope of Audit ............................................................................................ 6
    Follow-up on Prior Audit Findings ..................................................................................    7
INDEPENDENT AUDITOR'S REPORT ...............................................................................                9
CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED COSTS ...........................11
INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND
INTERNAL CONTROLS OVER FINANCIAL REPORTING ............................................                                    13
    Questioned Costs Based on Compliance and Internal Control Issues ............................... 14
    Other Compliance and Internal Control Matters ..............................................................27
SUPPLEMENTAL FINANCIAL SCHEDULES
    Exhibit A . Consolidated Schedule of Awards and Claimed Costs .................................. 37
    Exhibit B . Schedule of Audited Costs by Grantee and Subgrantees ...............................                       38
    Schedule B-1 .  Schedule of Audited Costs by Subgrantee:
         Media and Technology Charter High School......................................................39
    Schedule B-2 .  Schedule of Audited Costs by Subgrantee:
         Reaching Out to Chelsea Adolescents ......................................................................        40
    Schedule B-3 .  Schedule of Audited Costs by Subgrantee: Jumpstart ............................. 42
    Schedule B-4 .  Schedule of Audited Costs by Subgrantee: Generations..........................                         43
    Schedule B-5 .  Schedule of Audited Costs by Subgrantee: YouthBuild .......................... 45
APPENDICES
Massachusetts Service Alliance's Response to Report ..........................................              Appendix A
Corporation for National and Community Service's Response to Report .................Appendix B
SUMMARY AND HIGHLIGHTS
  -.PI-   .-I
                     ---~
                                                           4501 Ford Avenue. Suite 1400, Alexandria. VA 22302
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kcarneyco.com




Office of Inspector General
Corporation for National and Community Service

This report is issued under an engagement with the Office of Inspector General (OIG) to audit
the costs claimed by the Massachusetts Service Alliance (MSA) and its subgrantees, with the
exception of subgrantee City Year, from April 1,2002, through March 3 1,2005, under the grants
awarded by the Corporation for National and Community Service (Corporation). We conducted
our audit fieldwork from July 11, through September 26,2005, in accordance with generally
accepted government auditing standards, and included such tests of internal controls as were
considered necessary under the circumstances. This report summarizes the results of the audit
and identifies instances of noncompliance with laws, regulations, and grant terms. In addition,
the report discloses weaknesses in internal controls that were intended to ensure that grant funds
were used for the purposes, and in the amounts, intended by the grants.

Our audit report expresses a qualified opinion on the Consolidated Schedule of Awards and
Claimed Costs. Overall, we questioned costs totaling $61,089 ($35,993 of grant costs and
$25,096 of education awards). The questioned grant costs represent .35 percent of the
$10,148,130 in costs claimed by MSA during the audit period.

Background

The Corporation awards grants and cooperative agreements to state commissions such as MSA
and other entities to assist in the creation of full-time and part-time national and community
service programs.

MSA, a non-profit agency established in 1991, serves as the Massachusetts state commission for
community service. MSA's mission is to generate an ethic of service throughout the
Commonwealth of Massachusetts by creating and supporting service and volunteer opportunities
for all age groups.

MSA invests funding into community-based organizations and mobilizes individuals and entities
to link strategies related to community service, service learning, and volunteerism. MSA
provides training to entities to help ensure the effectiveness of the programs and the volunteers
within the program.

As of March 31,2005, MSA had received funding from the Corporation for various programs
within the scope of this engagement in the amount of $21,504,230. The majority of this amount
was subgranted to numerous entities to carry out community service programs. A brief synopsis
of the awards follows:
                           MSA Grant Awards and Direct Funding

                                                                           Costs Claimed
                                                               Funding     April 1,2002,
                                                              Authorized     through
                                                                           March 31,2005
 00ASCMA022      AmeriCorps Competitive                       $ 7,332,968    $ 2,852,250
 03ACHMA001      AmeriCorps Competitive                          5,943,575       1.834.278
      Total AmeriCorps Competitive                              13,276,543       4,686.528

 00ASFMA022      AmeriCorps Formula
 03AFHMA002      AmeriCorps Formula
      Total AmeriCorps Formula

 OlSCSMAO19      Administrative
 04CAHMA001      Administrative
      Total Administrative

 02PDSMA019          Program Development Assistance
                     and Training (PDAT)
 05PTHMA001          PDAT
      Total PDAT

 Total Grants Administered by MSA                              $21.504.230        %10.148.13(3

Grant Programs Audited

Our audit of MSA covered financial transaction, compliance, and internal control testing of the
following program awards funded by the Corporation:

   Promam             Award Number                Award Period               Audit Period
Competitive           00ASCMA022                7/1/00 to 10/31/03        4/1/02 to 10/31/03
Competitive           03ACHMA001                                          8/l 1/03 to 3/31/05
Formula               00ASFMA022                                          4/1/02 to 1/31/04
Formula               03AFHMA002                                          9/3/03 to 3131/05
Administrative        OlSCSMAO19                                          4/1/02 to 12/31/03
Administrative        04CAHMAOOl                                          1/1/04 to 3/31/05
PDAT                  02PDSMA019                                          4/1/02 to 12/31/04
PDAT                  05PTHMA001                                          1/1/05 to 3/31/05
MSA subgrantees selected for detailed audit for the program years included in our audit scope
include:

                                                                                Percentage of
 Subgrantee                                                         Federal     Total Federal
                                                              Costs Claimed     Costs Claimed

 Media and Technology Charter High School (MATCH)
 Reaching Out to Chelsea Adolescents (ROCA)
 Jumpstart
 Generations
 Springfield College
 YouthBuild
 Total Subgrantees


Summarv of Results

Our audit report expresses a qualified opinion on the Consolidated Schedule of Awards and
Claimed Costs. Questioned costs based on compliance and internal control issues and other
compliance and internal control matters are summarized below.

We have issued a report, titled Independent Auditor's Report on Compliance and Internal
Controls over Financial Reporting, which is applicable to the audit of the Consolidated Schedule
of Awards and Claimed Costs. In that report, we identified findings required to be reported
under Government Auditing Standards.

Ouestioned Costs Based on Compliance and Internal Control Issues

Our audit disclosed the following instances of noncompliance and internal control issues:

   1. MSA did not have adequate review procedures in place to ensure that subgrantees
      documented member eligibility, recruitment, and selection. This resulted in $15,442 of
      questioned costs, $812 of applicable administrative cost, and $13,283 of education
      awards.

   2. MSA did not adequately monitor member timesheets to ensure that subgrantees properly
      recorded hours in the Web-Based Reporting System (WBRS), paid living allowances
      according to provisions and, that the service performed was within the scope of the
      original grant requirements. This resulted in $1 1,813 of questioned education awards.

   3. MSA did not have adequate financial monitoring procedures or other procedures in place
      to ensure that subgrantees did not claim unallowable andlor unsupported costs. This
       resulted in $18,752 of questioned costs and an additional $987 of applicable
       administrative cost.

Other Com~lianceand Internal Control Matters

Our audit disclosed the following weaknesses in MSA's internal control structure and instances
of noncompliance with Federal laws, applicable regulations, and award conditions:

   4. MSA did not have adequate monitoring procedures in place to ensure subgrantees
      adequately maintained documentation of member records related to member evaluations,
      member contracts, and contract stipulations.

   5. This finding was deleted; however, the finding number was retained for continuity with
      the earlier report and managements' comments.

   6. MSA did not have adequate financial monitoring procedures in place to ensure that MSA
      and its subgrantees had adequate financial management systems.

Costs Ouestioned

As a result of o w audit, we questioned grant costs totaling $35,993. The costs questioned
comprise approximately .35 percent of the total $10,148,130 in reported costs claimed by MSA
during the audit period: April 1,2002, through March 31,2005. A questioned cost is a potential
violation of a provision, law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds; a finding that, at the time of the
audit, a cost was not supported by adequate documentation; or a finding that the expenditure of
funds for the intended purpose was unnecessary or unreasonable.

Grant participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards from the Corporation's National Service Trust. These award
amounts are not funded by the Corporation grants and thus, are not included in claimed costs.
As part of our audit, however, we determined the effect of audit findings on education award
eligibility. Using the same criteria described above, we questioned education awards of $25,096.
The following table presents the questioned Federal costs and education awards by exception:

                                                                      Federal   Education
                          Questioned for                               Costs     Awards
                                                                     Ouestioned Ouestioned
 Inadequate Member Selection Monitoring
 Member background checks not documented
 Member eligibility not documented
 Inadequate Member Timesheet Monitoring
 Hardcopy timesheets do not support amounts in WBRS
                                - -

 Inadequate Financial Monitoring
 Payroll registers do not support living allowance submitted for
 reimbursement
 Living allowance reimbursement greater than allowed percentage
 Inadequate documentation to support cost
 Excess reimbursement of men&& living allowance
 Employer taxes charged to the incorrect Periodic Expense Report
 PER) category
 Subtotal
 Applicable Administrative Cost
 Total

Costs and education awards questioned, by grant, appear in Exhibit A and are summarized
below:

                                      Federal Costs     Education Awards
                    Grant Number       Questioned          Questioned
                   00ASCMA022
                   03ACHMA001
                   00ASFMA022
                   03AFJXMA002
                   OlSCSMA019
                   04CAHMA001
                   02PDSMA019
                   05PTHMA001
                   Total


We utilized audit sampling techniques to test the costs claimed by MSA and selected
subgrantees. Based upon our sampling methodology, questioned costs in this report may not
represent the total questioned, had all expenditures been tested. In addition, we have made no


                                                5
attempt to project such costs to total expenditures incurred based on the relationship of costs
tested to total costs.

Details on the questioned costs and education awards appear by subgrantee in Schedules B-1
through B-5.

Purpose and Scope of Audit

Our audit covered the costs claimed under the Corporation Grant Numbers 00ASCMA022 and
03ACHMA001 (AmeriCorps Competitive), 00ASFMA022 and 03AFHMA002 (AmeriCorps
Formula), 0 1SCSMAO19 and 04CAHMA001 (Administration), and 02PDSMA019 and
05PTHMA001 (PDAT), exclusive of subgrantee City Year, for the period April 1,2002, through
March 3 1,2005.

The objectives of our audit were to determine whether:

       Financial management systems used by MSA presented accurate financial results of the
       sponsored programs
       Internal controls for financial and project systems complied with Corporation and Office

   .   of Management and Budget (OMB) requirements for administering grant funds
       MSA had adequate procedures and controls to ensure compliance with Federal laws,
       applicable regulations, and award conditions, and that member services were appropriate

   .   to the programs
       Award costs reported to the Corporation were adequately documented and allowable in
       accordance with the award terms and conditions.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonable assurance regarding whether
amounts claimed against the awards, as presented in the Consolidated Schedule of Awards and
Claimed Costs, are fiee of material misstatement. Our audit included examining, on a test basis,
evidence suoaorting" the amounts and disclosures in the Consolidated Schedule of Awards and
Claimed Costs. An audit also includes assessing the accounting principles used and significant
estimates made by the auditee, as well as evaluating the overall financial schedule presentation.
Our audit included reviews of audit reports and working papers prepared by the independent
public accountants for MSA and its subgrantees in accordance with the requirements of OMB
Circular A-133, Audits of States, Local Governments, and Non-ProJit Organizations.

The contents of this report were disclosed to and discussed with MSA officials at an exit
conference on November 3,2005. In addition, we provided a draft of this report to MSA and to
the Corporation Management for comment. MSA and Corporation responses are included as
Appendices A and B, respectively, in this report. As appropriate, we adjusted the findings and
figures provided in our draft of this report based upon additional evidence provided by MSA.
Follow-up on Prior Audit Findings

The most recent Pre-Audit survey of MSA was performed by KPMG, LLP (KPMG). Their
report, Office of Inspector General (OIG) Audit Report Number 01-24, was dated October 27,
2000, and identified eight findings. Our audit followed-up on the status of findings and
recommendations made in that report. All prior audit recommendations have been adequately
implemented or otherwise resolved by the Corporation and MSA. KPMG's findings and the
current state are summarized below:

       Commissioners and reviewers of potential subgrantees did not sign a required conflict of
       interest form, although reviewers were asked if there was a conflict of interest. MSA
       now requires all involved parties to sign a conflict of interest form.

       Documentation for applicants that were rejected for funding was missing. During our
       review, we noted that MSA maintains documentation supporting rejection.

       Documentation to support Administrative and PDAT Financial Status Reports (FSR) was
       unavailable. MSA provided all requested source documentation during our audit.

       An adequate process to review and assess the timeliness of subgrantee FSR submissions
       was not established. During our review, we found that MSA had implemented a process
       to review and assess the timeliness of subgrantee report submissions. While several
       submitted late reports, MSA was able to produce documentation explaining the late
       submissions or follow-up letters to the subgrantee.

       Accountable properly was not tagged. During our review of internal controls, we noted
       that MSA was tagging property in order to safeguard assets.

       There was no formal policy to ensure MSA's computer system was backed up on a daily
       basis. During our review, we found that MSA has implemented a formal back-up policy.
       The policy states that the Office Manager (Executive Director (ED)) is responsible for
       ensuring that the computer system is backed up on a daily basis. In the ED'S absence,
       two other individuals within the organization are designated to ensure this function has
       been completed. Once a month, a duplicate back-up tape is transferred *om MSA's fire
       safe to the safety deposit box at a bank.

       Fiscal monitoring of subgrantees did not include any archived documentation. MSA
       represented that it now performs a fiscal review of subgrantees at least once every three
       years. We selected a sample of five subgrantees and confirmed that, of those that had
       been selected for a fiscal review, two received a fiscal review and had documentation
       verifymg that the review had been completed.

       The standard monitoring tool needed refining to document the adequacy of the sample
       size and document which items were selected for review. During our review of the
      monitoring process, we found that monitoring tools contained the refinements suggested
      in the Pre-Audit Survey. The sample size is standardized as 25 percent of all member
      files, and increases to 100 percent if problems are found. When members are selected for
      review, their names are placed at the top of the monitoring tool. At the completion of the
      review, a summary list of all members tested is provided to the subgrantee.




Edward F.Kearney
September 26,2005
                                                             4501 Ford Avenue,Suite 1400,Aladriia, VA 22302
                                                             PH:703.931.5600,EX: 703.931.3655,wwwkeameyco.com



Office of Inspector General
Corporation for National and Community Senrice


                             INDEPENDENT AUDITOR'S REPORT

We have audited the accompanying Consolidated Schedule of Awards and Claimed Costs of the
Massachusetts Service Alliance (MSA) for the award numbers listed below under the terms of
the respective grant agreements between the Corporation for National and Community Service
(Corporation) and MSA. The costs, as presented in this schedule, are the responsibility of MSA
management. Our responsibility is to express an opinion on this schedule based on our audit.

   Prom                 Award Number              Award Period                   Audit Period
Competitive             00ASCMA022              7/1/00 to 10131/03            4/1/02 to 10/31/03
Competitive             03ACHMA001              8111/03 to 6/30/07            8/11/03 to 3/31/05
Formula                 00ASFMA022              6/1/00 to 1/31/04             4/1/02 to 1/31/04
Formula                 03AFHM.4002             9/3/03 to 8/22/06             9/3/03 to 3/31/05
Administrative          01SCSMAO19              1/1/01 to 12/31/03            4/1/02 to 12/31/03
Administrative          04CAHMA001              1/1/04 to 12/31/06            1/1/04 to 3/31/05
PDAT'                   02PDSMA019              1/1/02 to 12/31/04            4/1/02 to 12/31/04
PDAT                    05PTHMA001              1/1/05 to 12/31/07            1/1/05 to 3/31/05

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedule is free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedule. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe our
audit provides a reasonable basis for our opinion.

In our opinion, except for the omission of the supporting source documentation related to the
$35,993 in questioned costs discussed in the Supplemental Financial Schedules, the Consolidated
Schedule of Awards and Claimed Costs presents fairly, in all material respects, the costs claimed
for the period April 1,2002, through March 31,2005, in conformity with the terms of MSA's
grant agreements with the Corporation.



' Program Development Assistance and Training
In accordance with Government Auditing Standards, we have also issued our report, dated
September 26,2005, on compliance and internal controls over hancial reporting.

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation, MSA and its subgrantees, and the United States Congress.




September 26,2005
Alexandria, Virginia
                   MASSACHUSETTS SERVICE ALLIANCE
         CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED COSTS
               For the Period April 1,2002, through March 31,2005

                    Cornoration for National and Communitv Service Grants

                                                                              Claimed
                                                             Funding        April 1,2002,
                                                            Authorized        through
                                                                            March 31,2005
 00ASCMA022         AmeriCorps Competitive                  $ 7,332,968       $ 2,852,250
 03ACHMA001         AmeriCorps Competitive                     5,943.575          1,834,278
      Total AmeriCorps Competitive                            13,276.543         4.686.528

 00ASFMA022         AmeriCorps Formula                         3,553,084           2,451,015
 03AFHMA002         AmeriCorps Formula                         2.882.848           1.840.495
      Total AmeriCorps Formula                                 6,435,932           4,291,510

 OlSCSMA019          Administrative
 04CAHMA001          Administrative
      Total Administrative

                        Program Development Assistance
 02PDSMA019             and Training (PDAT)                      480,827             402,289
 05PTHMA001             PDAT                                     179.000                   0
      Total PDAT                                                 659,827             402,289

 Total Grants Administered by MSA                           $21,504.230        $   10.148.130

Summarv of Significant Accountine Policies
Reporting EntitJ;
The accompanying Consolidated Schedule of Awards and Claimed Costs includes amounts
budgeted and claimed under AmeriCorps Competitive, AmeriCorps Formula, PDAT, and
Administrative grants awarded to MSA by the Corporation for the period from April 1, 2002,
through March 3 1,2005.
MSA awards its AmeriCorps Competitive and AmeriCorps Formula grants to numerous
subgrantees that carry out the AmeriCorps programs and report financial and programmatic
results to MSA and the Corporation.
Basis of Accounting
The accompanying Consolidated Schedule of Awards and Claimed Costs was prepared in
accordance with the provisions of grant agreements.
                                                           4501 Ford Awnuc, Suiw 1400, Alaandria,VA 22302
                                                           PH: 703.931.5600, FX: 703.931.3655, wwwkarneyco.eam




Office of Inspector General
Corporation for National and Community Service


     INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND INTERNAL
               CONTROLS OVER FINANCIAL REPORTING

We have audited the Consolidated Schedule of Awards and Claimed Costs of the Massachusetts
Service Alliance (MSA) and have issued our report thereon, dated September 26,2005, covering
the awards listed below.

  Promam                Award Number              Award Period                   Audit Period
Competitive             00ASCMA022              7/1/00 to 10/31/03            4/1/02 to 10131/03
com&titive              03ACHMA001
Formula                 00ASFMA022
Formula                 03AFHMA002
Administrative          OlSCSMAO19
Administrative          04CAHMA001
PDAT'                   02PDSMA019
PDAT                    05PTHMA001

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial schedules are free of material misstatement.

In planning and performing our audit of award costs as presented in the Consolidated Schedule
of Awards and Claimed Costs for the period April 1,2002, through March 3 1,2005, we
considered MSA's internal controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial schedule, and not to provide assurance on the internal
controls over financial reporting. Consequently, we do not provide an opinion on internal
controls.

Our consideration of internal controls would not necessarilv disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards established
by the American Institute of Certified Public Accountants, reportable conditions involve matters
&ring to our attention relating to significant deficiencies in the design or operation of the
internal controls that, in our judgment, could adversely affect the entity's ability to record,

' Program Development Assistance and Training
                                                13
process, summarize, and report financial data consistent with the assertions of management in
the financial schedules. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce, to a relatively low
level, the risk that errors or irregularities in amounts, which would be material in relation to the
hancial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. The following
reportable conditions were identified during our audit.

Ouestioned Costs Based on Compliance and Internal Control Issues

Finding Number 1 - Inadeauate Documentation of Membershiv Elidbilitv. Recruitment,
and Selection

Condition

MSA did not ensure that its subgrantees had an accurate and unified understanding of what
constitutes acceptable criminal background check and eligibility documentation for grant
compliance purposes. Also, MSA did not have adequate monitoring procedures in place to
ensure that proper documentation was maintained.

        The records of 12 members (out of 165 tested) were lacking evidence of completion of a
        criminal background check, even though these 12 members had substantial direct contact
        with children while participating in the program. Not performing a criminal background
        check violates the terms of the grant and can put beneficiaries, staff and members in
        harm's way. We have questioned $12,387 in member support costs, $652 for the
        applicable administrative wst and an additional $10,606 in education awards.

        The following table summarizes the subgrantees that failed to maintain sufficient
        documentation to verify wmpletion of criminal background checks:
                  Lack of Documentation for Criminal Background Checks
                     Member Files                                      Questioned
                                                          Questioned
        Subgrantee      Lacking         Program Years                  Education
                                                             Cost
                     Documentation                                      Award
      Reaching Out
      to Chelsea
      Adolescents
      (ROCA)               3               2002-2003         $ 3,200     $       0
      Jumpstart             1              2003-2004                 0           0
      Generations          2        2001-2002,2002-2003         5,134        5,975
      YouthBuild           4        2001-2002,2002-2003         4,053       4,63 1
      Northeastern
      University           -2       2002-2003,2003-2004           N/A         N/A
      MSA Total            12
                           -                                   12,387    $ 10.606
      Related ~dministrativeCost                                  652
      MSA Total (Including Administrative Cost)              % 13.039

    AmeriCorps Provisions, B. AmeriCorps Special Provisions, 6. Eligibility, Recruitment,
    and Selection, h. Criminal Background Checks, states:

        Programs with members or employees who have substantial direct contact with
        children (as defined by state law) or who perform service in the homes of children or
        individuals considered vulnerable by the program, shall, to the extent permitted by
        state and local law, conduct criminal record checks on these members or employees
        as part of the screening process. This documentation must be maintained consistent
        with state law.

.   The files of 6 members (out of 165 tested) did not contain adequate evidence to support
    the eligibility. Examples of missing items included:

        -   A self certification of having received a high school diploma or an agreement to
            obtain a high school diploma
        -                                           -.
            Documentation to vrove the member's aee (thus the member was determined to
                              A


            have not met the age requirement and to be lacking parental consent)
        -   Proper proof of citizenship, such as a birth certificate or passport.

    We have questioned $3,055 in member support costs, $160 for the applicable
    administrative cost, and an additional $2,677 in education awards.

    The following table summarizes the subgrantees that did not maintain sufficient
    documentation in member files to verify members' eligibility:
                       Lack of Documentation for Eligibility
              Member Files                                           Questioned
                                                        Questioned
Subgrantee        Lacking          Program Years                     Education
                                                            Cost
             Documentation                                            Award
ROCA                  1              2002-2003               $     0    %      0
Jumpstart            2          2002-2003,2003-2004                0       2,000
Generations           1              2002-2003                 2,347           0
YouthBuild           2
                     -          2001-2002,2002-2003              708         677
MSA Total            6
                     -                                         3,055    % 2.677
Related Administrative Cost                                      160
MSA Total (Including Administrative Cost)                    $3.215

AmeriCorps Provisions, B. AmeriCorps Special Provisions, 6. Eligibility, Recruitment,
and Selection, a. Eligibility to Enroll, states:

   The Grantee may select as AmeriCorps members only those individuals who are
   eligible to enroll in AmeriCorps. In order to be eligible, an individual must meet the
   statutory requirements of the definition of a member (see Definitions). The Grantee
   is responsible for obtaining and maintaining adequate documentation to demonstrate
   the eligibility of members.

AmeriCorps Provisions, A. Dehitions, 14, states:

   Member means an individual:

          Who is enrolled in an approved National service position;
          Who is a U.S. citizen, U.S. national or lawful permanent resident alien of the
          United States;
          Who is at least 17 years of age at the commencement of service unless the
          member is out of school and enrolled:
          i. In a I11-time, year-round Youth Corps Program or full-time summer
              Program as defined in the Act (42 U.S.C. 12572 (a) (2)), in which case he
              or she must be between the ages of 16 and 25, inclusive, or
          ii. In a Program for economically disadvantaged youth as defined in the Act
              (42 U.S.C. 12572 (a)(9)), in which case he or she must be between the
              ages of 16 and 24, inclusive; and
          Has a high school diploma or an equivalency certificate (or agrees to obtain a
          high school diploma or its equivalent before using an education award) and
          who has not dropped out of elementary or secondary school in order to enroll
          as an AmeriCorps member (unless enrolled in an institution of higher
          education on an ability to benefit basis and is considered eligible for funds
          under section 484 of the Higher Education Act of 1965,20 U.S.C. 1091), or
                  who has been determined through an independent assessment conducted by
                  the Program to be incapable of obtaining a high school diploma or its
                  equivalent.

Recommendation

MSA should provide its subgrantees with clear guidance regarding what constitutes acceptable
documentation to support eligibility and what documentation is considered adequate to prove
that a criminal background check was completed. MSA should instruct subgrantees to perform a
criminal background check on all members or employees who have substantial direct contact
with children and other vulnerable persons and maintain this documentation. A statement in the
member's record, if state law requires that the actual criminal background check documentation
be expunged, should be maintained stating that a criminal background check was completed. In
addition, the Corporation should ensure that MSA monitors records to ensure proper
documentation is maintained.

In addition, we recommend that MSA ensure that all subgrantees:

       Maintain documentation, in accordance with state law, to prove that a criminal
       background check was completed
       Maintain documentation to support all eligibility requirements.

MSA 's Resvonse

MSA does not agree with the finding regarding criminal background checks. MSA believes that
its two-day ArneriCorps Program Director Training, Program Director check of understanding,
and close monitoring demonstrates MSA's understanding of background check and eligibility
requirements. MSA also disagrees with the 12 incidents in which background checks were not
provided and asserted that for 7 members it can document the request for background check, and
that the remaining 5 members did not have "sustained, direct and unmonitored contact with
children."

MSA did not dispute the finding that the files of 6 members out of 165 tested were missing
eligibility documentation. However, MSA noted that all but one of the six members addressed in
the finding occurred before the 2003-2004 program year; thus its system is now effective.

Auditor's Comment

Subsequent to the exit conference, we allowed MSA to provide support for documentation that
was not available during the audit, which resulted in the elimination of 18 background check
exceptions, 17 of whichwere from program year 2004-2005 (6 exceptions) and-program year
2003-2004 (11 exceptions). Note that nine of the 2003-2004 exceptions were the most recent
year for one program. Also, 15 documentation exceptions, including 8 from program year 2003-
2004 were eliminated. We maintain, since the information was not readily available during the
audit, that the process is not functioning as well as MSA maintains. A dependable process
should be able to produce required documentation. We acknowledge that, subsequent to
program year 2003-2004, MSA implemented procedures to aid in the prevention of missing
member file documentation.

However, with regard to the criminal background checks for seven members, a signed request
form does not provide evidence that a criminal background check had been completed. We did
not need to view the results of criminal background checks, but we did need to view
documentation that would cause us to conclude that the checks had been completed. Otherwise,
neither we nor the Corporation can conclude that the check was in fact completed. We further
note that MSA provided no evidence that those background checks were completed, only that
they had been requested. The remaining five members performed functions such as monitoring a
violence youth meeting, helping with the peer leaders class, contacting youth, coaching
volleyball, and providing service for an after-school program. We believe these member
activities meet the substantial direct contact with children requirement of the AmeriCorps
provision, and accordingly, background checks were required for these members.

Accordingly, we continue to support the recommendations.

Findine Number 2 - Inadequate Timesheet Monitoring

Condition

MSA did not have monitoring procedures in place to verify that subgrantees' member timesheets
were properly reviewed to ensure the following:

   .    A periodic reconciliation of hours entered into the Web Based Reporting System
        (WBRS) with the hours recorded on the members' timesheets occurred
        Member service hours recorded on timesheets were not used as a basis for payment of the

   .    living allowance
        Member activities complied with grant intent.

Specific instances include:

    .   The records of 71 (out of 165 tested) members contained timesheets that did not match
        hours recorded in WBRS. Reasons for the discrepancies varied at the member level.
        Examples include:

            -   A member was released from the program but continued to serve several more
                days, thus timesheet hours were greater than those in WBRS
            -   A member served extra hours with a church group but did not record these hours
                on the timesheet, thus timesheet hours were less than those in WBRS
            -   Timesheets were lost, thus the number of hours in WBRS was greater than the
                timesheets stated.
We have questioned $11,813 in education awards related to member education awards
that have not previously been questioned, based on timesheets not substantiating WBRS
entries.

The following table summarizes the subgrantees that did not maintain proper timesheets:

                      Lack of Proper Timesheet Maintenance
                     Member Files
                                                                       Questioned
    Subgrantee          Lacking          Program Years
                                                                     Education Award
                     Documentation
 Media and
 Technology
 Charter High
 School (MATCH)              2                 2004-2005                       $          0
 ROCA                        1                 2002-2003                                  0
 Jumpstart                   3            2002-2003,2004-2005                             0
                                          2001-2002,2002-2003,
 Generations                 8            2003-2004,2004-2005                       7,088
 Springfield                              2001-2002,2002-2003,
 College                    15                 2004-2005                                  0
                                          2001-2002,2002-2003,
 YouthBuild                 23                 2004-2005                           4,725
 Northeastern                             2001-2002,2002-2003,
 University                 19                 2003-2004                             N/A
 MSA Total                  a                                                  $   11.813

AmeriCorps Provisions, B. AmeriCorps Special Provisions, 14. Member Records and
Confidentiality, a. Record-keeping, states:

   The Grantee must maintain records specified in (b) below that document each
   member's eligibility to serve pursuant to the member eligibility requirements in the
   definitions section of these provisions. The records must be sufficient to establish
   that the individual was eligible to participate in the program and that the member
   successllly completed the program requirements.

Members were improperly paid the living allowance based on the number of hours they
served instead of a flat rate. For program years 2001-2002 and 2002-2003, the payroll
register shows allowances paid based upon the number of service hours. Member
timesheets for the same period contained a statement such as "Pay for -hours." For
program year 2004-2005, interviews with two current members were conducted and each
member stated that they were paid hourly. The member living allowance was
inappropriately paid on an hourly basis instead of a flat stipend, as required by the
provisions.
AmeriCorps Provisions, B. AmeriCorps Special Provisions, 11. Living Allowances and
Other In-Service Benefits, b. Living Allowance Disbursement, states:

   The living allowance is designed to help members meet the necessary living expenses
   incurred while participating in the AmeriCorps Program. Programs must not pay a
   living allowance on an hourly basis. It is not a wage and should not fluctuate based
   on the number of hours members serve in a given time period. Programs should pay
   the living allowance in increments, such as weekly or biweekly. Programs may use
   their organization's payroll system to process members' living allowances.
   However, if a payroll system cannot be altered and must show 40 hours in order to
   distribute a living allowance, then members' service hours should be documented
   separately to keep track of their progress towards the Program's total required
   AmeriCorps service hours.

The records of two 2 Northeastern University members (out of 165 tested), for program
years 2001-2002 and 2003-2004, showed that the majority of their service time was not
spent on designated grant activities. Timesheet descriptions were compared to member
position descriptions and significant variances were found. One member's position
description stated she would "direct an effort to build a community-wide infiastmcture
... be responsible for facilitating a Leadership Advisory Council and building a providers
network ... increase the number of youth service programs." Timesheets revealed that
the member spent the majority of their time working on a college tour. The second
member was to "be responsible for coordinating community linkages for the ATLAS
Adventures after-school program and building relationships with programs and
organizations in the Dorchester community." Activities performed by this member,
according to timesheets, included: swimming, art, movies, park, games, a trip to the zoo,
reading, sunbathing, homework, tutoring and class with the kids." Northeastern
University received its funding as a Promise Fellows grant, and the grant provisions did
not require Northeastern University to submit Financial Status Reports (FSRs) and
Periodic Expense Reports (PERs). We could not assess whether funds were
inappropriately reimbursed. As a result of this condition, members could receive a living
allowance and education award without having performed any of their required
activities.

   AmeriCorps Provision 15(a) states, "Parent Organizations must obtain the prior
   written approval of the AmeriCorps Program Office before making the following
   changes in the approved Program:

          Changes in the scope, objectives or goals of the Program, whether or not they
          involve budgetary changes;
          Substantial changes in the level of participant supervision;
          Entering into additional sub-grants or contracts for AmeriCorps activities
          funded by the Grant but not identified or included in the approved application
          and grant budget."
Recommendation

The Corporation should work with MSA to establish monitoring procedures to ensure that
member timesheets are properly reviewed to ensure subgrantees:

       Perform a periodic reconciliation of hours entered into WBRS with the hours recorded on
       members' timesheets
       Distribute a living allowance that does not fluctuate with the number of service hours

   .   performed
       Monitor to ensure that member activities comply with grant intent.



MSA does not agree with the finding regarding procedures to ensure the proper review of
timesheets. MSA believes that its two-day AmeriCorps Program Director Training, Program
Director check of understanding, and close monitoring demonstrates MSA's understanding of
timesheets review. MSA disagrees with 44 of the exceptions since MSA does not require
posting in WBRS the timesheets of members who have fulfilled the minimum education award
hours.

MSA notes, with 2 exceptions, the remaining 27 member instances listed above occurred before
the 2003-2004 Program Year, MSA believes this demonstrates the effectiveness of the
improvements that were made in its monitoring systems at the time. Further, it believes this
reflects human error and not a systemic weakness.

MSA also advised that hours were different for one member because the member was arrested
and served two days after his arrest. Upon learning of the arrest, the member was terminated and
the date of termination was effective the date of the arrest. Accordingly, the hours in those two
days were not entered into WBRS.

The finding regarding payment of living allowance on an hourly rate was directed to
YouthBuild. A YouthBuild weekly stipend varies for each member based on the member's start
date. AmeriCorps provisions allow for the establishment of fines for tardiness and absenteeism,
and YouthBuild defines these penalties in its member handbook and contract. The contract also
clearly defines the payment that members receive as a stipend based on participation. Since
YouthBuild's payment management system does not allow for fines to be deducted from a
regular stipend entry, member payments appear to vary upon the number of hours served.
AmeriCorps provisions allow for such processing and deductions, "If a payment management
system cannot be altered and must show 40 hours in order to distribute a living allowance, the
members' service hours should be documented separately to keep track of their progress towards
the Program's total required AmeriCorps service hours." Given the complexity of this system
and the opportunity it presents for misunderstanding, as of December 12,2005, YouthBuild has
removed all fines &om the program and payroll.
MSA disagrees with both exceptions with regard to Northeastern University members that the
majority of member activities must align with the member position description. It argues that
there is nothing to prohibit programs responding to the changing needs of their community
partners by altering member activities as long as the activities in which members engage align
with those approved in the grant. In each of the cited exceptions, the AmeriCorps members
completed the work outlined in the description and did other activities that were outside of the
position description but within the approved grant activities and member service plan.

Therefore, MSA disputes 47 of the 74 specific instances, and disagrees with the main principle
of Finding Number 2.

Auditor's Comment

We agree that MSA now has improved procedures in place to aid in the prevention of most
occurrences of noncompliance. A total of 1,700 hours is the minimum requirement for earning
an education award; however, the requirement is not a limitation on a member's service. As long
as a person is serving in the AmeriCorps Program, the person is entitled to the benefits of the
Program. A member's time needs to be recorded into WE3RS in order to accurately depict a
member's service and entitlement. The provisions do not provide for understatement of a
member's actual hours.

These exceptions represent approximately two thirds of the exceptions, and they occurred
throughout the audit period. MSA maintains that no new procedures are necessary since
25 exceptions occurred before their new procedures were implemented. MSA's new procedures
are still permitting unacceptable timekeeping practices. We still maintain that enhanced
procedures are required to eliminate the recurrence of instances similar to the 44 exceptions
discussed above.

We note MSA's explanation of a member who served for two days after arrest and the
subsequent termination with an effective date to coincide with the arrest. However, if the
member is found not guilty, he or she is ekitled to reinstatement. MSA provided no reason
under Corporation policy to backdate the termination. MSA does not offer the reason for the
arrest, and the Corporation may wish to review the circumstances.

In regard to YouthBuild's hourly payments, we understand that some payment management
systems must show 40 hours to allow for accurate payment. However, this was not the case at
YouthBuild. Thus, the 2004 AmeriCorps provisions, 8 11B with regard to keeping hours
separately from the payment management system is not applicable. YouthBuild member hours
varied in the payroll register, in addition to having a voluntary deduction labeled as fines.
Furthermore, when hours varied f?om 80 (bi-weekly payments), the dollar amount of the
variance did not correspond to any amount listed in the fine policy. In addition, differing
payments based on start date lends itself to members receiving an hourly rate, as opposed to a
straight bi-weekly stipend.
In regard to Northeastern University, the position description contains the activities that
members will engage in throughout their service. When these descriptions are compared to the
service plan, the two position descriptions reasonably align. When these plans of service are
compared with the timesheets of the members that demonstrate how time was actually spent,
discrepancies are found. Thus, the actual service provided appears to be different fkom the
original intent. Management controls provided by an accurate position description are reduced
when entities allow member activities that vary substantially fkom approved position
descriptions.

Accordingly, we continue to support the recommendations.

Finding Number 3 - Inadequate Financial Monitoring Procedures

Condition

MSA did not review the supporting documentation submitted by subgrantees with the PER to
determine if the costs reimbursed were allowable, correctly categorized, and contained adequate
supporting documentation. The lack of review                         MSA £rom
unallowable reimbursement of costs. In addition, MSA did not provide adequate training and
specific guidance that required subgrantees to submit expenses with sufficient supporting
documentation and maintain the documentation in accordance with the AmeriCorps provisions.

Specific instances include:

       Based on testing performed for five payroll periods at YouthBuild, it was determined that
       the amount of member living allowances being charged to the grant exceeded the amount
       paid to members reflected in the payroll register. We have questioned costs in the
       amount of $15,702 for the over-reimbursement of living allowances of $l4,917 and the
       applicable administrative cost of $785.

   .   In January 2005, MATCH submitted for reimbursement $1,700 of member support costs
       incurred in August and September 2004. The results of our testing indicated that $312 of
       this submission was unallowable because this amount was previously reimbursed. This
       has resulted in $328 of questioned costs, including $312 of questioned costs and an
       additional $16 of applicable administrative cost.

       The following criteria refer to the two preceding specific instances only. OMB Circular
       A-122, Attachment A - General Principles, Subpart A -Basic Considerations, Factors
       Affecting Allowability of Costs, states:

            To be allowable under an award, costs must meet the following general criteria:

               a. Be reasonable for the performance of the award and be allocable thereto under
                  these principles.
           b. Conform to any limitations or exclusions set forth in these principles or in the
                           .-
              award as to tvues or amount of cost items.
           c. Be consistent with policies and procedures that apply uniformly to both
              Federally-financed and other activities of the organization.
                                                               -
           d. Be accorded consistent treatment.
           e. Be determined in accordance with generally accepted accounting principles
              (GW).
           f. Not be included as a cost or used to meet cost sharing or matching
              requirements of any other Federally-financed program in either the current or
              a prior period.
           g. Be adequately documented.

    Generations requested reimbursement of member support costs (living allowance and
    Federal Insurance Contributions Act (FICA)) in excess of the Corporation's ceiling,
    $8,415 or 85 percent of $9,900, during budget period 2003-2004. Generations
    mistakenly calculated the maximum amount the Corporation would reimburse as $8,500
    instead of $8,415. This led to an overpayment of $1,854 in member support costs for 27
    members, and the applicable administrative cost of $98.

    AmeriCorps Provisions, B. AmeriCorps Special Provisions, 11. Living Allowances,
    Other In-Service Benefits and Taxes, states:

       The living allowance match must come from non-Federal sources, unless an
       exception for lack of available financial resources at the local level under 42 U.S.C.
       12594 (g) is specifically approved in the Special Conditions of the Award document.
       Programs that want to provide a living allowance in excess of the minimum amount
       stated in the Application Guidelines must provide a Grantee match for all funds over
       85% of that minimum.

.   MATCH did not maintain adequate supporting documentation for a transaction charged
    as a direct cost to the grant award. MATCH incurred a $3,000 cost for a training session
    for members for which it was unable to provide any supporting documentation. The total
    cost was allocated equally between the grantee and Federal portion on the PER. This
    resulted in questioned costs of $1,579, including $1,500 for the unsupported transaction
    and the applicable administrative cost of $79.

    AmeriCorps Provisions, C. General Provisions, 22. Financial Management Provisions, b.
    Source Documentation, states:

       The Grantee must maintain adequate supporting documents for its expenditures
       Okleral and non-Federal) and in-kind contributions made under this Grant. Costs
       must be shown in books or records [e.g., a disbursement ledger or journal], and must
       be supported by a source document, such as a receipt, travel voucher, invoice, bill, in-
       kind voucher, or similar document.
   .   From December 2004, through March 2005, MATCH included the Program Director's
       employer portion of FICA expense in the Member Cost section of the PER instead of the
       Program Operating Cost section. This resulted in MATCH receiving FICA expenses
       being reimbursed at 75 percent, as opposed to the allowed 67 percent for Program
       Operating Costs. We have questioned costs related to the overpayment of fringe benefits
       in the amount of $178, including $169 for reimbursed FICA expenses and the applicable
       administrative cost of $9.

       AmeriCorps Provisions, B. Amencorps Special Provisions, 13. Matching Requirements,
       a. Matching Obligation, states:

                                                                       -
               The Grantee must arovide and account for the matching funds as aaeed-
               upon in the appro& application and budget. All programs are encouraged
               to raise some funds from the private sector, i.e., nowFederal funds. The
                                             -

               Corporation requires, at a minimum, the following aggregate matches:

               i.  Member Costs: 15 percent including Living Allowance, FICA,
                   Unemployment Insurance, Worker's Compensation and Health Care.
               ii. Program Operating Costs: 33 percent including Other Member Costs, Staff,
                   Operating Costs, Internal Evaluation and Administration. For further
                   requirements, refer to OMB Circular A-102 and its implementation
                   regulation (45 C.F.R. 2543) or A-1 10 (45 C.F.R. 2541), as applicable.

Recommendation

The Corporation should require that MSA improve its review of financial documentation
submitted by subgrantees with the PER. The Corporation should determine the allowability of
the costs questioned, $18,752, and recover costs that are not allowable or allocable to the grant,
including administrative costs, $987, applied to the disallowed costs. In addition, we
recommend that MSA ensure that subgrantees:

       Adhere to the Corporation's member support cost reimbursement ceiling (85 percent of
       maximum allowed amount)
       Categorize all expenses properly
       Maintain adequate supporting documentation of claimed costs
       Review PER support documentation to ensure the proper amount is submitted for

   .   reimbursement
       Submit expenses for reimbursement not more than once.

MSA 's Resvonse

MSA disagrees with this finding. MSA has a system in place to train and monitor subgrantees
on their fiscal reporting requirements.
YouthBuild lost AmeriCorps grant funding and did not retain records previously reviewed by
MSA staff. YouthBuild now recognizes the need to retain records regardless of future
AmeriCorps funding. Since its refunding in 2004, YouthBuild ~ o s t i has
                                                                      n provided a copy of its
general ledger to substantiate each reimbursement request.

In transferring the budget to the fiscal system, Generations staff made an error resulting in the
above finding. Generations has adjusted a reimbursement request to reflect the substitution of
$1,854 in allowable costs and has moved the questioned costs to match, since the program pays a
higher stipend to members than the required minimum.

The MATCH program was a first-time subgrantee in 2004 and was learning how to navigate
AmeriCorps reporting. Due to MSA fiscal monitoring practices, the member reimbursement and
FICA filing in question were caught by MSA program officers in January 2005, prior to this
audit, and were in the process of being addressed. The $3 12 over-reimbursement was subtracted
from the June 2005 program reimbursement, as were the administrative costs.

The MATCH Program Director's FICA expense was corrected in the PER but was not returned
since it is an allowable cost. Under the AmeriCorps grant provisions, the 33 percent match is an
aggregate and does not apply to individual line items.

Finally, regarding the lack of supporting documentation for $1,500 for member training, MSA
disagrees that the program lacks adequate documentation for this expense.

Therefore, MSA disputes 3 of the 5 specific instances, and disagrees with the main principle of
Finding Number 3.

Auditor's Comment

We agree that MSA now has procedures in place to aid in the prevention of the occurrences of
noncompliance.

With regard to YouthBuild, record retention to support grant expenditures is mandatory
regardless of whether funding is provided on a continuing basis. AmeriCorps Provision 27
requires recipients to maintain written documentation for three years. OMB Circular A-1 10,
now 2 CFR Part 215, also imposes a comparable record retention requirement on entities
receiving Federal funds. MSA has stated that YouthBuild now recognizes retention
requirements, which should preclude recurrence of the condition.

With regard to Generations, we are pleased the error has been corrected along with the
underlying cause.

With regard to MATCH's member over-reimbursement, MATCH and MSA offered no evidence
during the audit that MATCH had identified and was in the process of correcting the error. With
regard to MATCH's FICA expense, the Program Director's employer portion of FICA expense
was reported in the Member Cost section of the PER instead of the Program Operating Cost
section. This resulted in MATCH receiving reimbursement for FICA expenses at 75 percent, as
opposed to the allowed 67 percent for program operating costs. Thus, we maintain the position
that MATCH was over-reimbursed for these expenses, as the costs were included in the 85
percent reimbursement category, not the 67 percent category.

We maintain that MATCH had inadequate documentation for the $1,500 of training costs. The
information provided did not conclusively demonstrate that training was held and the associated
cost incurred; it only provided circumst&tial evidence related to pi-ed     activities. Such
information included portions of the payroll register. This information demonstrates that the
school paid these teachers. The list of teachers detailing the time they spent training and the
information provided for them was made a k r the fact and lists total costs at $1,560, $1,440
short of the total costs incurred. The training outline, which does not provide any information of
the costs associated with the training, and the final documents provided, are portions of the
member contracts which state that the teachers have opportunity to provide training and receive
additional compensation. This information does not provide the costs associated with the
training. In addition, contracts do not state that teachers will receive compensation of $125;
instead it provides for $20 (or no specific hourly amount) for cuniculum/training, thus creating
an additional discrepancy.

Accordingly, we continue to support the recommendations.

Other Compliance and Internal Control Matters

Finding Number 4 - Inadeauate Member Records Maintenance

Condition

MSA did not adequately monitor subgrantees to ensure that all documentation, such as member
evaluations, contract stipulations (position descriptions and Drug-Free Workplace Policy) and
member contracts were maintained and that subgrantees received guidance on standard sections
contained in member contracts. As a result, subgrantees did not consistently maintain such
member documentation.

Specific instances include:

   .    The records of 16 (out of 165 tested) members were lacking a mid-term evaluation. One
        subgrantee was unaware that evaluations were to be written and stated that they were
        conducted orally. Other subgrantees could not locate documentation of evaluations. The
                                                              -
        records of 20 members (out of 165 tested) were lacking an end-of-term evaluation.
        Several members left the program early, leaving the subgrantee unable to complete an
        evaluation. As a result, members who had not received a positive evaluation could be
        accepted as an AmeriCorps member for additional terms.

        The following table summarizes the subgrantees that did not maintain sufficient
        documentation in its member files to verify mid-term evaluations:
                             Lack of Mid-Term Evaluation
                             Member Files
            Subgrantee         Lacking             Program Years
                             Documentation
     ROCA                         1                  2002-2003
     Jumpstart                    2             2001-2002,2003-2004
     Generations                  9        2001-2002,2002-2003,2003-2004
     YouthBuild                   2                  2002-2003
     Northeastern University      2                  2001-2002

     The following table documents the subgrantees that did not maintain sufficient
     documentation in member files to verify end-of-term evaluations:

                           Lack of End-of-Term Evaluation
                              Member Files
          Subgrantee             Lacking              Program Years
                              Documentation
     Jumpstart                       2             2002-2003,2003-2004
     Generations                     11       2001-2002,2002-2003,2003-2004
     Springfield College             3             2002-2003,2003-2004
     YouthBuild                      3             2001-2002,2002-2003
     Northeastern University          1                  2002-2003

    AmeriCorps provision Section B.7 g., Performance Reviews, states:

        The Grantee must conduct and keep a record of at least a mid-term and end-of-term
        written evaluation of each member's performance, focusing on such factors as:

            i. Whether the member has comuleted the reauired number of hours:
            ii. Whether the member has satisfactorily completed assignments; and
            iii. Whether the member has met other performance criteria that were clearly
                 communicated at the beginning of the term of service.

.   The contracts of 60 members (out of 165 tested) did not contain all of the required
    attributes of a member contract before the signature such as:

        -   ROCA did not have position descriptions contained in its member contract
        -   YouthBuild and Northeastern University did not have position descriptions or a
            Drug-Free Workplace Policy in, or referenced to, the member contracts.

    The following table summarizes the subgrantees that did not include all required
    attributes in member contracts:
                              Contract Stipulations
                             Member Files
      Subgrantee                Lacking                  Program Years
                             Documentation
ROCA                              10                       2002-2003
YouthBuild
Northeastern University

Position descriptions will enhance MSA's ability to ensure member activities are allowed
by grant provisions. Not having a Drug-Free Workplace Policy in, or referenced to, the
member contract is a violation of Federal requirements.

The records of 4 members (out of 165 tested) did not contain any member contracts.
This could result in members not being legally enrolled in the program and not being
aware of their commitment. Also, missing contracts and lack of information could have
led to members being unaware of Corporation policies.

The following table summarizes the subgrantees that did not maintain member contracts
for all members' files:

                            Lack of Member Contracts
                             Member Files
       Subgrantee               Lacking             Program Years
                             Documentation
 Generations                        2            2001-2002,2003-2004
 YouthBuild                         2                 2002-2003

The following criteria refer to the two preceding specific instances only. AmeriCorps
Provisions, B. AmeriCorps Special Provisions, 7. Training, Supervision and Support, b.
Member Contracts, states:

   The Grantee must require that members sign contracts that, at a minimum, stipulate
   the following:

       i.     The minimum number of service hours and other requirements (as developed
              by the Program) necessary to successfully complete the term of service and to
              be eligible for the education award;
       ii.    Accmtable conduct:
                   A


       iii.   Prohibited activities, including those specified in these grant provisions;
       iv.    Requirements under the Drug-Free Workplace.      Act (41 U.S.C. 701 et seq.);
                                                                                        ..
       v.     ~us&nsion and termination &es;
       vi.    The specific circumstances under which a member may be released for cause;
       vii.   The position description;
               viii. Grievance procedures; and
               ix. Other requirements as established by the Program.

Recommendation

The Corporation should work with MSA to ensure that requirements for maintenance of
documentation are established for subgrantees and that guidance on standard sections of the
member contracts is conveyed by MSA to subgrantees.

In addition, we recommend that MSA ensure that subgrantees:

       Complete both a mid-term and an end-of-tenn evaluation and that these documents are

   .   maintained in each member's file
       Include position descriptions and a Drug-Free workpl& Policy in all member contracts
       and retain this information in each member's file
       Maintain a signed member contract that is kept in each member's file.

MSA 's Response

MSA disagrees with this finding. MSA has a system in place to train and monitor subgrantees
on their required member documentation and evaluations.

With three exceptions, the mid-term evaluation member findings listed above occurred before
the 2003-2004 program year. The change from oral to written evaluations demonstrates the
effectiveness of the improvements that were made in our monitoring systems at that time.
Regarding the end-of-term evaluations, with four exceptions the end-of-term evaluations
findings occurred before 2003-2004. MSA believes that the above exceptions reflect human
error and not a systemic weakness. Finally, in three instances (one post 2003-2004) the program
has alternative documentation for members leaving the program.

Regarding member contracts, prior to 2003-2004, ROCA included a signed position description
in the member application which was in some member files, but not all, because members would
frequently retain the description for their own reference. When this problem was noted in 2003,
the member contract was rewritten to include an embedded position description, in addition to a
separate take-away position description for the member.

Northeastern University has always included a position description and Drug-Free Workplace
Policy in its member contract; however the signature page accepting the contents is located
before this information. In the spirit of continuous improvement, Northeastern University has
amended its current contract to include a space for members to initial that they have read and
agreed to the position description and program policies before the signatures in the text of the
contract.

YouthBuild Boston had position descriptions as a separate attachment in 2001-2002 and 2002-
2003. In those years, it also required the separate submission of a signed copy of the Drug-Free
Workplace Policy and the policy was also part of the member handbook. Since 2004-2005, its
contracts have included a position description and separate signed Drug Free Workplace Policy.

Of the four member contract findings, three occurred before 2003-2004. MSA believes that this
demonstrates the effectiveness of the improvements that were made in its monitoring systems at
that time and that the single remaining finding reflects human error and not a systemic weakness.
Finally, a verbal contract is binding in the Commonwealth of Massachusetts. By reporting for
service and receiving their stipends, members are legally enrolled in the program. They also
attended member training where Corporation policies were communicated.

Therefore MSA disputes 35 of the 100 specific findings, and disagrees with the general Finding
Number 4.

Auditor's Comment

We agree that MSA now has procedures in place to aid in the prevention of the ommences of
noncompliance. We do acknowledge   - that the exception rate has decreased in recent years and
that MSA'S revised procedures are a positive change. However, we still identified exceptions
after the implementation of the new procedures. For both mid-term and end-of-term evaluations,
the exceptions which occurred after the new procedures approximated 20 percent of the total.
We maintain our position that MSA needs to emphasize the importance of completing mid-term
and end-of-term evaluations.

With regard to evaluations, while it is best that an evaluation be completed with the members
present, the provisions only require an evaluation be completed. If the member is unavailable, an
evaluation can still be completed. Please note that we have removed from the finding instances
where we received documentation describing a member's poor performance and prohibition of
future service.

In regard to ROCA's position descriptions for members, AmeriCorps requires the description be
maintained in the member contract, not the member application. MSA advised that ROCA had
corrected this exception as a result of MSA's monitoring in 2003, and now ROCA "embeds" the
position description in the member contract.

With regard to Northeastern University and YouthBuild, it is our position that any information
contained after the member signature is not included in the contract unless it was specifically
referred to prior to the signature. The amendments to the contracts that have been made by
Northeastern University and YouthBuild correct this error.

MSA maintains that verbal contracts are legally binding in Massachusetts and implies that the
legal interpretation mitigates the member contract finding. AmeriCorps provisions specifically
require written contracts. MSA, YouthBuild, and Generations were not in compliance with
AmeriCorps provisions regarding the missing contracts. While MSA maintains that its new
procedures reduced exceptions, the exceptions are still occurring at approximately the same
annual rate before and after the implementation of the new procedures.
Accordingly, we continue to support our recommendations.

Finding Number 5

This finding was deleted, however, the finding number was retained for continuity with the
earlier report and managements' comments.

Finding Number 6 - Inadequate Monitoring of Financial Management Svstem

Condition

MSA did not perform a self-evaluation and an evaluation of its subgrantees' internal controls
over the financial management system including written policies and procedures, payroll
processing and payments, and disbursements.

Specific instances include:

       At YouthBuild, our review disclosed that the amount of FICA withheld did not amount to
       7.65 percent of the total taxable amount. This was h e for the withholdings of 5 out of 15
       employees and members tested. In all instances, the amount withheld was less than the
       amount required by law; thus no additional Federal funds were used. Amounts related to
       FICA withholdings were not in accordance with applicable law.

       AmeriCorps Provisions section B, 11. Living Allowances, Other In-Service Benefits and
       Taxes, d. Taxes and Insurance, ii. FICA (Social Security and Medicare taxes) states:

            Unless the Grantee obtains a ruling from the Social Security Administration
            or the Internal Revenue Service that specifically exempts its AmeriCorps
            members from FICA requirements, the Grantee must pay FICA for any
            member receiving a living allowance. The Grantee also must withhold 7.65
            percent from the member's living allowance.

   .   YouthBuild did not maintain a financial management system which included standard
       accounting practices, sufficient internal controls, a clear audit trail, and written cost
       allocation procedures. YouthBuild's financial management system was not capable of
       distinguishing expenditures attributable to the MSA grants, identifymg costs by budget
       line item, or differentiating between direct and indirect costs. A new system was
       implemented on November 1,2004. However, the scope of our testing procedures and
       the limited amount of time the system was operational prevented us from completing an
       evaluation of the new system's effectiveness. YouthBuild's former financial
       management system did not allow direct costs to be traced from the PER back to the
       original source documentation. Without the ability to easily trace general ledger
       transactions to costs charged to the PER, YouthBuild could allow inadmissible costs to be
       charged to the grants.
   .    MATCH did not have a written accounting policies and procedures manual. The lack of a
        written accounting policies and procedures manual increases the risk that similar
        accounting transactions may be processed in different ways instead of with standardized
        procedures.

   .    MATCH does not maintain its blank check stock in a secure location. Unsecured blank
        checks are therefore more susceptible to theft or loss.

        The Executive Director of MSA has access to the blank check stock and check simine  " "
        authority. This lack of segregation of duties, i.e., the same person has access to and the
        authority to sign blank checks, weakens the internal control structure and increases the


        The following criteria refer to the four preceding specific instances only. AmeriCorps
        Provisions, C. General Provisions, 22. Financial Management Provisions, A. General,
        states:

The Grantee must maintain financial management systems that include standard accounting
practices, sufficient internal controls, a clear audit trail, and written cost allocation procedures as
necessary. Financial management systems must be capable of distinguishing expenditures
attributable to this Grant from expenditures not attributable to this Grant. This system must be
able to identify costs by programmatic year and by budget category and to differentiate between
direct and indirect costs or administrative cost. For M e r details about the Grantee's financial
management responsibilities, refer to OMB Circular A-102 and its implementing regulations (45
C.F.R. 2541), as applicable.

Recommendation

The Corporation should require MSA to monitor subgrantees' financial management systems to
ensure that they include a written accounting policies and procedures manual, procedures to
ensure proper payroll payment and withholding for both members and employees, and secure
blank check stock storage.

The Corporation should instruct MSA to ensure that the blank check stock be locked in a secure
safe and that the authorized check signer does not have access.

In addition, we recommend that MSA ensure subgrantees:

    .   Implement procedures that ensure compliance with FICA withholding requirements and
        that its payroll provider work with MSA to withhold the proper amounts
        Maintain a financial management system that complies with the requirements of the grant

    .   provisions
        Maintain a written accounting policies and procedures manual
        Maintain the blank check stock in a secure safe with limited access.
MSA 's Resvonse

MSA disagrees with this finding. MSA does have policies and procedures for ensuring proper
evaluation of subgrantees fiscal controls and has a risk based fiscal monitoring strategy.

Specifically on the issue of FICA withholding for YouthBuild Boston, MSA notes the combined
total of these findings is $26.25 with no individual instance greater than $8.17.

The lack of a financial management system relates to YouthBuild, an organization that has
received, from an extremely reputable Boston based auditing firm,unqualified opinions on its
financial statements and A-133 audits for the years ending 2002 and 2003.

In regard to MATCH, MSA agrees that it is essential to have written accounting procedures and
policies. Prior to the auditors visit, MATCH had not received a site visit with the most current
monitoring tool. Instead, the program and MSA Program Officer were working to address start-
up challenges experienced by the program. These issues have now been resolved and MSA has
created a training and technical assistance plan to put the MATCH program's fiscal policies and
procedures in writing. Additionally, the blank check stock referenced above is now kept under
lock and key.

Finally, MSA is a small organization with eight full-time staff. Its fiscal management policies
are reviewed annually and are designed to provide maximum security with three part-time fiscal
managers provided by a financial services wmpany. As such, they have access to the accounting
system and payment management system but not to blank check stock. The Chief Executive
Officer, who is bonded, has access to the blank check stock and is a signatory but is not able to
access the accounting system or the payment management system. As a final check on MSA's
system, the MSA Treasurer reviews an unopened bank statement to check for irregularities at
random intervals throughout the year.

Therefore, MSA disputes 2 of the 9 specific exceptions and disagrees with the general Finding
Number 6.

Auditor's Comment

MSA offers evidence that remediation occurred after the audit for select items, but it did not
offer evidence that the findings were not in existence at the time of the audit.

In regard to YouthBuild's FICA expenses, MSA addresses the dollar amount of the exceptions.
Our finding was directed at a process that produced a 33 percent error rate. While the dollar
amounts of the current errors were small, there is no assurance that future errors would not occur.

MSA's explanation did not address the issue of YouthBuild's financial management system and
the adequacy of its audit trails. The financial management system's noncompliance is an
occurrence regardless of whether or not an unqualified opinion was received for its A-133 audit
and financial audit for the years in question.

We are pleased that MATCH has recognized the importance of a written policies and procedures
manual and is working towards implementation. We are also pleased the blank check stock is
now secure.

Segregation of duties is a challenge for small organizations, but that challenge does not eliminate
segregation of duties as an integral component of an effective control environment. Our finding
was predicated upon instituting a stronger prevent control, i.e., separating the check stock from
the check signer. The weaker and less efficient detect control is an after-the-fact review. The
current control structure would not prevent the fraudulent preparation of checks but would
provide for identiflmg an inappropriate transaction after it occurred. The solution may be as
simple as the Treasurer maintaining the check stock, and the Executive Director maintaining
signing authority.

Accordingly, we continue to support our recommendations.

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service (Corporation), MSA and
its subgrantees, and the United States Congress.




September 26,2005
Alexandria, Virginia
      SUPPLEMENTAL FINANCIAL SCHEDULES


The following schedules were prepared by Kearney & Company.
                                           Exhibit A

          MASSACHUSETTS SERVICE ALLIANCE AND SUBGRANTEES
         CONSOLIDATED SCHEDULE OF AWARDS AND CLAIMED COSTS

                   Coruoration for National and Communitv Service Awards

                                                       Claimed
                                                                              Questioned
        Award                           Funding         within     Questioned
                        Program                                               Education
        Number                         Authorized       Audit       Costs*
                                                                               Awards
                                                       Period
     00ASCMA022 AmeriCorps
                     Competitive $ 7,332,968 $ 2,852,250             $ 11,243      $ 12,700
     03ACHMA001 AmeriComs
                     Competitive
                                .   5.943.575  1,834,278                9.760         2,363
     Total ArneriCorps Competitive 13,276,543  4,686.528               21.003        15,063

     00ASFMA022 AmeriCorps
                    Formula              3,553,084     2,451,015       14,990        10,033
     03AFHMA002 AmeriCorps
                    Formula              2.882.848     1,840,495            0             0
     Total AmeriCorps Formula            6,435,932     4.291.510       14,990        10,033

     01SCSMA019 Administrative             546,406       452,605            0                0
     04CAHMA001 Administrative             585.522       315,198            0                0
     Total Administration                1,131,928       767,803            0                0

                Program
                Development
                and Training
     02PDSMA019 (F'DAT)                    480,827       402,289            0                0
     05PTHMA001 PDAT                       179,000             0            0                0
     Total PDAT                            659,827       402,289            0                0

     Total Grants Administered by
     MSA                              $ 21.504.230 % 10.148.130      $ 35.993      % 25.096

* These questioned cost figures include the related unallowable administrative cost based on
calculating 5.26 percent of questioned costs.

The cost details provided above are explained in Schedules B-1 through B-5 in this report.
                                       Exhibit B
               MASSACHUSETTS SERVICE ALLIANCE
     SCHEDULE OF AUDITED COSTS BY GRANTEE AND SUBGRANTEES
                  April 1,2002, through March 31,2005

                                           Questioned      Questioned
   Detailed Audits of       Claimed         Claimed
                                                           Education        Reference
        Grants               Costs
                                             Costs          Awards
                                 Note 1

Grantee
MSA - State Commission

Submantees
Media and Technology
Charter High School
(MATCH)                         158,847            2,085                0 Schedule B-1

Reaching Out to Chelsea
Adolescents (ROCA)              847,816            3,369                0 Schedule B-2

Jumpstart                       831,617               0          2,000 Schedule B-3

Generations                     736,010            9,826         13,063 Schedule B-4

Springfield College             595,111               0                 0

YouthBuild                      574,683        20,713            10,033 Schedule B-5

Total - Detailed Audits    $   5.052.132      $35.993          $25.096
Total Questioned Costs                                         $61.089



1. The total claimed costs reported do not include costs claimed by subgrantees that were
   not selected as part of this audit. During the period covered by our audit, MSA had 28
   AmeriCorps program subgrantees, including City Year. Accordingly, we used a sampling
   approach based on our Risk Assessment and Audit Approach Memorandum, dated July 6,
   2005, at selected field sites to test the costs claimed for Program Years 2001-2002
   through 2004-2005.
                                                          Schedule B-1
                   MASSACHUSETTS SERVICE ALLIANCE
              SCHEDULE OF AUDITED COSTS BY SUBGRANTEE
        AWARD NUMBERS 00ASCMA022 AND 03ACHMA001 (AMERICORPS
                               COMPETITIVE)
         AND OOASF'MA022 AND 03AFHMA002 (AMERICORPS FORMULA)
                     April 1,2002, through March 31,2005
                 Media and Technology Charter High School (MATCH)
                                                                       Reference
           Approved Budget (Federal Funds)

                      03ACHMA001              $ 306.703

           Total Budget                                    $306.703 Note 1

           Claimed Costs
                     03ACHMA001               $ 158.847

           Total Claimed Costs                             % 158.847 Note 2

           Questioned Costs

                      03ACHMA001              $    1,981               Note 3
                      Administrative Cost            104               Note 4

           Total Questioned Costs
Notes
   1. The amount shown as Approved Budget represents the total funding to MATCH for
      2004-2005, according to the budget schedules for MSA grants.

   2. Claimed wsts represent MATCH'S reported expenditures for the tested program year
      2004-2005.

   3. MATCH was over-reimbursed $312 for member support wsts. MATCH received an
      additional $169 in over-reimbursement by charging a higher percentage than allowed for
      staff fiinge benefits. The remaining portion, $1,500 ofthis cost, relates to a wst for
      which no documentation wuld be provided.

   4. Based on the questioned wst of $1,981, we question 5.26 percent, or $104, of
      administrative cost applied to the questioned wst.
                                                                            Schedule B-2

              MASSACHUSETTS SERVICE ALLIANCE
          SCHEDULE OF AUDITED COSTS BY SUBGRANTEE
    AWARD NUMBERS 00ASCMA022 AND 03ACHMA001 (AMERICORPS
                          COMPETITIVE)
     AND 00ASFMA022 AND 03AFHMA002 (AMERICORPS FORMULA)
                April 1,2002, through March 31,2005

                    Reaching Out to Chelsea Adolescents (ROCA)

                                                                      Reference
     Approved Budget (Federal Funds)




     Total Budget                                       $ 1.163.400   Note 1

     Claimed Costs
              00ASCMA022                 $532,085
              03AFHMA002                  3 15.73 1

     Total Claimed Costs                                $   847.816 Note 2

     Questioned Costs

               00ASCMA022                $   3,200                    Note 3
               Administrative Cost             169                    Note 4

     Total Questioned Costs                             u

1. The amount shown as Approved Budget represents the total funding to ROCA for 2001-
   2002 through 2004-2005, according to the budget schedules for MSA grants.

2. Claimed costs represent ROCA's reported expenditures for the tested program years,
   2001-2002,2002-2003,2003-2004, and 2004-2005.

3. Member support costs of $3,200 have been questioned due to lack of documentation that
   a criminal background check had been completed.
4. Based on the questioned cost of $3,200, we questioned 5.26 percent, or $169, of
   administrative cost applied to the questioned cost.
                                                                              Schedule B-3

               MASSACHUSETTS SERVICE ALLIANCE
           SCHEDULE OF AUDITED COSTS BY SUBGRANTEE
     AWARD NUMBERS 00ASCMA022 AND 03ACHMA001 (AMERICORPS
                           COMPETITIVE)
      AND 00ASFMA022 AND 03AFHMA002 (AMERICORPS FORMULA)
                 April 1,2002, through March 31,2005

                                       Jumpstart

                                                                         Reference
     Approved Budget (Federal Funds)




     Total Budget                                          $   1.401.586 Note 1

     Claimed Costs
              00ASCMA022
              03AFHMA002

     Total Claimed Costs

     Questioned Education Award

               00ASCMA022                    $     2.000                 Note 3

     Total Questioned Education Awards                     M


1. The amount shown as Approved Budget represents the total funding to Jumpstart for
   2001-2002 through 2004-2005, according to the budget schedules for MSA grants.

2. Claimed costs represent Jumpstart's reported expenditures for the tested program years,
   2001-2002,2002-2003,2003-2004, and 2004-2005.

3. Education awards of $2,000 have been questioned due to member files not containing
   documentation proving the member is a United States (U.S.) citizen, U.S. national or
   lawful permanent resident alien of the U.S.
                                                                     Schedule B-4

          MASSACHUSETTS SERVICE ALLIANCE
      SCHEDULE OF AUDITED COSTS BY SUBGRANTEE
AWARD NUMBERS 00ASCMA022 AND 03ACHMA001 (AMERICORPS
                      COMPETITIVE)
 AND 00ASFMA022 AND 03AFHMA002 (AMERICORPS FORMULA)
            April 1,2002, through March 31,2005

                               Generations

                                                                Reference
Approved Budget (Federal Funds)

         OOASCMAO22
         03ACHMA001

Total Budget                                      % 1.181.200   Note 1

Claimed Costs
         OOASCMAO22
         03ACHMA001

Total Claimed Costs

Questioned Costs

         00ASCMA022                  $   7,481                  Note 3
         03ACHMA001                      1,854                  Note 4
         Administrative Cost               49 1                 Note 5

Total Questioned Costs

Questioned Education Award

         OOASCMAO22                  $ 10,700                   Note 6
         03ACHMA001                      2.363                  Note 7

Total Questioned Education Awards                 u

                                   43
1. The amount shown as Approved Budget represents the total funding to Generations for
   2001-2002 through 2004-2005, according to the budget schedules for MSA grants.

2. Claimed costs represent Generations' reported expenditures for the tested program years,
   2001-2002,2002-2003,2003-2004, and 2004-2005.

3. Member support costs of $7,481 have been questioned. Member support costs of $5,134
   have been questioned for members that did not have evidence of a criminal background
   check. An additional $2,347 of member support costs have been questioned due to
   member files not containing documentation proving the member is a U.S. citizen, U.S.
   national or lawful permanent resident alien of the U.S.

4. Member support costs of $1,854 have been questioned because these costs were
   reimbursed in excess of the allowable 85 percent limit.

5. Based on the questioned cost of $9,335,5.26 percent, or $491, of administrative cost
   applied to the questioned cost.

6. Education awards of $10.700 have been auestioned. Of this amount.. $5.975
                                                                         .   has been
   questioned due to a member not having ehdence of a criminal background check. The
   additional $4,725 has been questioned for members that did not have documentation of
   completion of service hoursheeded to earn an education award.

7. An education award of $2,363 has been questioned for members that did have
   documentation of service hours needed to earn an education award.
                                                                              Schedule B-5

                  MASSACHUSETTS SERVICE ALLIANCE
              SCHEDULE OF AUDITED COSTS BY SUBGRANTEE
        AWARD NUMBERS 00ASCMA022 AND 03ACHMA001 (AMERICORPS
                              COMPETITIVE)
         AND 00ASFMA022 AND 03AFHMA002 (AMERICORPS FORMULA)
                    April 1,2002, through March 31,2005



                                                                        Reference
        Approved Budget (Federal Funds)

                 00ASFMA022
                 03ACHMA001

        Total Budget                                        % 818.692 Note 1

        Claimed Costs
                 00ASFMA022
                 03ACHMA001

        Total Claimed Costs                                 % 574.683 Note 2

        Questioned Costs

                 00ASFMA022                                             Note 3
                 03ACHMA001                                             Note 4
                 Administrative Cost                                    Note 5

        Total Questioned Costs

        Questioned Education Award

                 00ASFMA022                                             Note 6

        Total Questioned Education Awards                   % 10.033

Notes
   1. The amount shown as Approved Budget represents the total funding to YouthBuild for
      2001-2002 through 2004-2005, according to the budget schedules for MSA grants.
2. Claimed costs represent YouthBuild's reported expenditures for the tested program years,
   2001-2002,2002-2003, and 2004-2005.

3. Member support costs of $14,241 have been questioned. Of this amount, $708 has been
   questioned because member files did not contain documentation proving the member is a
   U.S. citizen, U.S. national or lawful permanent resident alien of the U.S. An additional
   $4,053 has been questioned because there was no proof that a criminal background check
   had been completed. The final $9,480 was the amount of over-reimbursement for
   amounts in excess of the amount paid to members, according to the payroll register.

4. Member support costs of $5,437 have been questioned. This amount was over-
   reimbursement for amounts in excess of the amount paid to members according to the
   payroll register.

5. Based on the questioned cost of $19,678, 5.26 percent, or $1,035, of administrative costs
   applied to the questioned cost.

6. Education awards of $10,033 have been questioned. Of this amount, $677 has been
   questioned because member files did not contain documentation proving the member is a
   U.S. citizen, U.S. national or lawful permanent resident alien of the U.S. An additional
   $4,63 1 of education awards has been questioned because there was no proof that a
   criminal background check had been completed. The remaining $4,725 has been
   questioned for members that did not have documentation of the hours needed to earn an
   education award.
APPENDICES
                   Appendix A

Massachusetts Service Alliance's Response to Report
February 17,2006

Ms. Carol Bates
Acting Inspector General
1201 New York Avenue, NW Suite 830
Washington, DC 20525

Dear Ms. Bates;

Following is our response to the Audit of Corporationfor National and Cornmuniiy
Service Grants Awarded to the Massachusetts Service Alliance. We agree that it is
extremely important for all grantees and subgrantees of the Corporation to be held
accountable for the governmental funds that they disburse. As such MSA staff spend the
vast majority of their time working with subgrantees to ensure that they are providing
high quality, compliant service to communities across the Commonwealth.

Given this belief and our commitment to continuous improvement as demonstrated by the
improvement of our monitoring systems over time, we respectllly disagree with the
majority of findings in this report. Should you have any need for additional
documentation to support our position, we would be happy to provide it to you.


                             RESPONSE TO FINDINGS

Finding Number 1- Inadequate Documentation of Membership Eligibility,
Recruitment, and Selection

MSA did not ensure that its subgrantees had an accurate and unified understanding
of what constitutes acceptable criminal background check and eligibility
documentation for grant compliance purposes. Also, MSA did not have adequate
monitoring procedures in place to ensure that proper documentation was
maintained.

The records of 12 members (out of 165 tested) were lacking evidence of completion
of a criminal background check, even though these 12 members had substantial
direct contact withchildren while              in the program. Not performing a
criminal background check violates the terms of the grant and can put beneficiaries,
staff and members in harm's way.

The files of 8 members (out of 165 tested) did not contain adequate evidence to
support the eligibility of the members. Examples of items missing in the files
included:

           A self certification of having received a high school diploma or an
           agreement to obtain a high school diploma
       -   Documentation to prove the member's age (thus the member was
           determined to have not met the age requirement and to be lacking
           parental consent)
       -   Proper proof of eligibility, such as a birth certificate or passport

MSA Response
MSA disagrees that our subgrantees don't have an accurate and unified understanding of
what constitutes acceptable criminal background check and eligibility documentation.
Each year MSA hosts a mandatory two-day program director training in August for all
current subgrantees. This training covers all aspects of AmeriCorps including, but not
limited to the following: programmatic reporting, program compliance, reimbursement
requests and the Amencorps provisions. In order to document comprehension of this
training, since 2003 program directors must sign off that they have been trained and
understand their obligations on a multitude of requirements including the performance of
background checks and the proper documentation for eligibility. If Program Directors do
not check that they have a full understanding, MSA program officers follow up and
provide additional individual technical assistance.

On the issue of background checks specifically, MSA agrees that it is critical to protect
service beneficiaries, staff and members. As such we closely monitor programs to ensure
that they are performing criminal background checks (CORI).     ow ever,  61MA it is
illegal for anyone other than the individual checked or the authorized individual at the
requesting agency to view the completed CORI form. On site visits, MSA program
officers check to ensure that evidence of a CORI check is present. Our procedures for site
visits therefore have been limited to viewing the request for CORI form signed by each
individual and speaking with the authorized individual responsible for reviewing CORIs;
confirming that they were completed, reviewed, and filed.

Of the 12 incidents listed above, seven have the required request for CORI document on
file and two can produce checklists to show that the CORI was performed. The other five
(corps members placed at ROCA and at the Mayor's office in the City of Brockton and
the Public Defenders Office with the MA Promise Fellows program) complied with MA
state law requiring CORIs and did not complete CORIs on their members since they did
not have sustained, direct and unmonitored contact with children. Further, when the
service activities at ROCA changed in 2003, the program began CORI testing all
members and continues to do so to this day. Therefore MSA disagrees with all 12 CORI
findings.

Finally, MSA feels that this finding creates policy where it does not exist. Prior to
September 2005, there was no requirement that programs document their review
procedures for background checks. MSA now requires programs to document the request,
receipt and review of CORI checks by authorized program staff.

On the issue of eligibility, as noted above, programs receive training on an annual basis
detailing required and acceptable eligibility documentation. In addition to assist programs
in maintaining compliance and continuity during staff turnover since the 2003-2004
program year, each subgrantee is annually required to document their systems for
completing the 15 essential functions of an AmeriCorps program. In the Member Files
and Data collection System, each subgrantee must deLiith& process for collecting and
storing the required member documentation as well as who is responsible and the
timeline for completion. This system is reviewed and monitored by the appropriate MSA
program officer. On site visits, the system is tested when MSA program officers review
25% or 25 member files. If a program is out of compliance the MSA program officers
return to check 100% of the files at a mutually agreed upon date and time.

Since the writing of report by Kearney and Company, Northeastern University has
produced the required eligibility documentation for its disputed member. Finally, the
member lacking proof of parental consent has an application for the program that is duly
signed by her and her mother. This finding was disclosed after the exit conference. Due
to miscommunication with subgrantee program staff, it was not addressed before the draft
report was issued.

With one exception, the member findings listed above occurred before the 2003-2004
program year. We believe that this demonstrates the effectiveness of the improvements
that were made in our monitoring systems at that time.

Therefore, MSA disputes 14 of the 20 specific findings, and disagrees with the main
principle of finding number 1.

Finding Number 2 - Inadeauate Timesheet Monitorinp

MSA did not have monitoring procedures in place to verify that subgrantees'
member timesheets were properly reviewed to ensure the following:

       A periodic reconciliation of hours entered into the Web Based Reporting
       System (WBRS) with the hours recorded on the members' timesheets
       occurred
       Member service hours recorded on timesheets were not used as a basis for
       payment of the living allowance
       Member activities complied with grant intent.

Specific examples include:

   .   The records of 71 (out of 165 tested) members contained timesheets that did
       not match hours accumulated in WBRS. Reasons for the discrepancies
       varied at the member level. Examples include:

   -   A member was released from the program but continued to serve several
       more days, thus timesheet hours were greater than those in WBRS
   -   A member served extra hours with a church group but failed to record these
       hours on the timesheet, thus timesheet hours were less than those in WBRS\
   -   Timesheets were lost, thus the number of hours in WBRS was greater than
       the timesheets stated.

   .   Members were improperly paid the living allowance based on the number of
       sewice hours they sewed instead of a flat rate. For program years 2001-2002
       and 2002-2003, the payroll register shows wages paid based upon the number
       of sewice hours. Member timesheets for the same period contained a
       statement such as "Pay for -hours." For program year 2004-2005,
       interviews with two current members were conducted and each member
       stated that they were paid hourly. The member living allowance was
       inappropriately paid on an hourly basis instead of a flat stipend, as required
       by the provisions.

   .   The records of two Northeastern University members (out of 165 tested), for
       program years 2001-2002 and 2003-2004, showed that the majority of their
       sewice time was not spent toward the original intent of the grant activities
       described. Timesheet descriptions were compared to member position
       descriptions and significant variances between the two were found....

MSA Response
MSA disagrees that we do not have adequate monitoring procedures in place to ensure
the proper review of timesheets. Another of the 15 essential functions of AmeriCorps
programs is processing timesheets. The Processing Timesheets System requires
subgrantees to detail their process for collecting timesheets, entering them into WBRS,
and reconciling the two documents as well as to identify the person responsible for data
entry and the timeline for completion. This system is reviewed and monitored by the
appropriate MSA program officer. On site visits, the system is tested when MSA program
officers review 25% or 25 member files. If a program is out of compliance the MSA
program officers return to check 100% of the files at a mutually agreed upon date and
time.

We disagree that 44 of the instances referenced above are issues of noncompliance. They
reference instances where the number of hours reflected on timesheets was greater than
the number recorded in WBRS. These are also instances where the member served more
hours than was necessary to receive an education award. Many members serve more
hours than required for an education award due to the nature of their service and the
calendar time commitment that they have made. For example, a member sewing in a
school based setting my very well reach the required 1700 hours in March or April.
However, the member made a commitment to the children and school that they serve for
an entire academic year. To decrease the administrative burden on programs, once a
member has reached the required number of hours for an education award, MSA does not
require that additional timesheets be reflected in WBRS.

With two exceptions, the remaining 27 member findings listed above occurred before the
2003-2004 program year. We believe that this demonstrates the effectiveness of the
improvements that were made in our monitoring systems at that time. Further, MSA
believes that this reflects human error and not a systemic weakness.

Finally, in reference to the member who "was released from the program but continued to
serve several more days, thus timesheet hours were greater than those in WEIRS;" in fact,
MSA believes this is an example of member systems workiig. This member was arrested
and served two additional days before the information around his arrest was fully
disclosed to the program. In an effort to maintain the integrity of the AmeriCorps
funding, the subgrantee terminated him from the date of his arrest. The remaining hours
accumulated when the subgrantee was unaware of the arrest were not documented in the
AmeriCorps system or paid for with AmeriCorps funds.

YouthBuild Boston
The finding specifically regarding members who were improperly paid the living
allowance based on the number of hours they served instead of a flat rate, refers only to
YouthBuild Boston. YouthBuild is an at-risk youth development program. A significant
part of the program is teaching members job skills and etiquette including the importance
of timeliness and attendance. As such the AmeriCorps provisions allow for the
establishment of fines for tardiness and absenteeism. "If determined to be necessary for
member performance or attendance, the Grantee may impose a reasonable fine on
members for minor disciplinary problems consistent with the member contract." (2004
AmeriCorps provisions, section 10B)

In order to manage the fining process with clarityfor members, staff and the payroll
department, YouthBuild defines the offenses that incur fines, in their member handbook
and contract. The contract also clearly defines the payment that members receive as a
stipend based on participation. Each week members fill out a timesheet that shows their
total stipend. This number varies by member according to their start date.

For example, a part time member who began the program at the beginning the year may
have a total stipend of $21 1.5 per week while a member who began later has a total
stipend of $250 per week. These numbers reflect the entire stipend divided over the time
       required for completion by the member. However, the kouth~uildpayment
management system doesn't allow for fines to be deducted from a regular stipend entry.
 here fore the program has entered an hourly amount for each member so that the
necessary deductions may be processed. This too is allowable under the AmeriCorps
provisions. "If a payment management system cannot be altered and must show 40 hours
in order to distribute a living allowance, then members' senrice hours should be
documented separately to keep track of their progress towards the Program's total
required AmeriCorps service hours." (2004 AmeriCorps provisions, section 11B)

Finally given the differing stipend amount, depending on member start date, the hourly
amount is also included on the time sheet so that the payroll managers have a consistent
set of numbers for each individual. Given the complexity of this system and the
opportunity it presents for misunderstanding, MSA has directed YouthBuild to cease its
fining of members from programmatic match. As of December 12,2005, YouthBuild has
removed all fines from the program and payroll. A contract amendment has been written
to reflect the change, members have signed the amendment, and it has been placed in
every member file. Fines will no longer be reflected in payroll records as deductions.

Northeastern University
On the issue of the Northeastern University findings, MSA fully agrees that member
activities must align with the activities outlined in the approved grant. However we
disagree with both findings where this means that the majority of member activities must
align with the member position description. There is nothing to prohibit programs
responding to the changing needs of their community partners by altering member
activities as long as the activities in which members engage align with those approved in
the grant.

For example, the MA Promise Fellowship Program has a service planning process in
place that is designed to help the community host site partner and member best meet the
needs of the community. Working together, the program, member and host site create a
detailed service plan (using the member position description as a starting point) during
the member's first month of service that serves as a blueprint for the member's service
year. This process also provides an o p p o d t y for community partners to modify the
member's position description during the course of the year in order to meet the changing
needs of the community. Any changes must fall within one or more of the program's
perforrnance measures and be approved by the program and member.

In each of the cases listed above, the corps members completed the work outlined in the
description and did other activities that were outside of the position description but within
the approved grant activities and member service plan. The MA Promise Fellows
program's approved performance measures state 1) "School-to-Career Activities -
Fellows will coordinate school to career activities. ..to connect students to workplace
learning activities and career building opportunities." The first member in question
completed the activities in her description and also organized a tour of historically black
colleges for at risk Springfield area youth. 2) "After-School Programming - Fellows will
coordinate after school programming or directly serve in at least 10 after school programs
resulting in structured activities for at least 1,000 young people." The Atlas corps
member cited above was actively engaged in providing structured activities for young
people as demonstrated by the following age appropriate activities for young people,
''swimming, art, movies, park, games, a trip to the zoo, etc."

Therefore, MSA disputes 47 of the 74 specific findings, and disagrees with the main
principle of finding number 2.

Finding Number 3 - Inadequate Financial Monitoring Procedures

MSA failed to review the supporting documentation submitted by subgrantees with
the PER to determine if the costs reimbursed were allowable, correctly categorized,
and contained adequate supporting documentation. The lack of review pocedures
precluded MSA from preventing unallowable reimbursement of costs. In addition,


                                              6
MSA did not provide adequate training and specific guidance that required
subgrantees to submit expenses with sufficient supporting documentation and
maintain the documentation in accordance with the AmeriCorps provisions.

   .   Based on testing performed for five payroll periods at YouthBuild, it was
       determined that the amount of member living allowances being charged to
       the Corporation exceeded the amount paid to members according to the
       payroll register. We have questioned costs in the amount of $15,703 for the
       over-reimbursement of living allowances of $14,918 and the applicable
       administrative cost of $785.

   -   Generations requested reimbursement of member support costs (living
       allowance and Federal Insurance Contributions Act) in excess of the
       Corporations's ceiling, $8,415 or 85% of $9,900, during budget period 2003-
       2004. Generations mistakenly calculated the maximum amount the
       Corporation would reimburse as $8,500 instead of $8,415. This led to an
       overpayment of $1,854 in member support costs related to 27 members, and
       the applicable administrative cost of $98.

       In January 2005, MATCH submitted for reimbursement $1,700 of member
       support costs incurred in August and September 2004. The results of our
       testing indicated that $312 of this submission was unallowable because this
       amount was previously reimbursed. This has resulted in $328 of questioned
       costs, including $312 of questioned costs and an additional $16 of applicable
       administrative cost.

       MATCH did not maintain adequate supporting documentation for a
       transaction charged as a direct cost to the grant award. MATCH incurred a
       $3,000 cost for a training session for members that it was unable to provide
       any supporting documentation. The total cost was allocated equally between
       direct the grantee and Federal portion on the PER. This resulted in
       questioned costs of $1,579, including $1,500 for the unsupported transaction
       and the applicable administrative cost of $79.

   .   From December 2004 through March 2005, MATCH included the Program
       Director's employer portion of FICA expense in the Member Cost section of
       the PER instead of the Program Operating Cost section. This resulted in
       MATCH receiving FICA expenses being reimbursed by 75 percent, as
       opposed to the allowed 67 percent for Program Operating Costs. We have
       questioned costs related to the overpayment of fringe benefits in the amount
       of $178, including $169 for reimbursed FICA expenses and the applicable
       administrative cost of $9.

MSA Response
We disagree with this finding. MSA has a system in place to train and monitor
subgrantees on their fiscal reporting requirements. Prior to January 2004, MSA
                                                            -
monitored reimbursement reauests on site visits and through desk audits. Durine     "
monitoring visits, the backup documentation was audited for a randomly selected group
of reimbursements. As part of our continuous improvements, since January 2004, MSA
requires that programs submit reimbursement requests that include the PER from WBRS,
the general ledger that supports the time period, a reconciliation sheet that ties out every
expense in the PER to the general ledger and any other supporting documentation that is
necessary. This submission is reviewed by MSA program officers to ensure compliance
with approved grant activities and then again by MSA fiscal staff for accuracy. MSA also
performs risk based fiscal monitoring of subgrantees. On a fiscal site visit invoices for an
entire reimbursement are pulled to ensure that they match with the PER and general
ledger.

YouthBuild Boston
With regard to YouthBuild Boston, this finding is from program years 2001-2002 and
2002-2003. In 2002, YouthBuild Boston received a site visit from the MSA grants
coordinator. Her report demonstrates that YouthBuild had adequate backup
documentation and was able to tie member costs to the PER. At that time, fines were
deducted from the program's match. Unfortunately during the AmeriCorps funding crisis
of 2003, YouthBuild Boston's AmeriCorps grant was not funded again. Therefore
YouthBuild did not retain the records reviewed by MSA staff. YouthBuild now
recognizes the need to retain records regardless of future AmeriCorps funding. Since
their refunding in 2004, YouthBuild Boston has provided a copy of their general ledger to
substantiate each reimbursement request. They are able to tie this general ledger to the
PER for the Corporation share of funding as well as their match.

Generations Incorporated
Based on its risk assessment, Generations Incorporated received a site visit in 2002-2003
and 2004-2005. On both occasions, the program had the necessary supporting fiscal
documentation and systems for a compliant site visit. As a result, in 2003-2004 the
program did not receive a fiscal site visit. Instead, the budget and reimbursements were
subject to review by MSA program officers. The program submitted the correct amounts
for member stipends on the 2003-2004 budget and reimbursement requests for corps
member expenses are in the aggregate so this discrepancy was not noted. In transferring
the budget to the fiscal system, Generations staff made an error. This resulted in the
above finding.

Since the error was discovered and the grant is still open, Generations has adjusted a
reimbursement request to reflect the substitution of $1854 in allowable costs and has
moved the              costs to match since the program pays a higher stipend to members
than the required minimum. This substitution renders the questioned administrative costs
allowable. To prevent this error in the future, on fiscal sitevisits MSA staff will check the
member stipend distribution for each grant year not previously covered in a site visit.

MATCH
The MATCH program was a first time grantee in 2004. As such, they were just learning
how to navigate the difficult world of AmeriCorps reporting. Due to MSA fiscal
monitoring practices, the member reimbursement and FICA filing listed were caught by
MSA program officers in January 2005 prior to this audit and were in the process of
being addressed. The $312 over reimbursement was subtracted from the June 2005
program reimbursement as were the administrative costs.

The FICA expense was corrected in the PER but was not returned since it is an allowable
cost. Under the AmeriCorps grant provisions, the 33% match is an aggregate and does
not apply to individual line items. The $178 questioned above was deemed within the
approved budget and the program is on track to make the required 33% aggregate match
by the end of their third year.

Finally, regarding the lack of supporting documentation for $1500 for corps member
training, we disagree that the program
                               . -       lacks adequate documentation for this expense.
They have a sum&ry document which includes24 sessions at $125 for training on
effective tutoring in math, science, English and history. The document includes the
names of the teachers engaged in the training and the number of sessions conducted by
each. Accompanying this document is an excel spreadsheet with the names of the teacher
and the training costs associated with each individual. A training calendar was provided
that shows the dates and times of the training with the teacher responsible for each
session broken out by date and time. Lastly, the programprovided signed teacher
contracts that state the teachers will be paid for curriculum developmentJtraining for the
MATCH program at a rate of $125 and pay stubs for each teacher that verify payment of
the stipend within the stated time frame.

Therefore, MSA disputes 3 of the 5 specific findings, and disagrees with the main
principle of finding number three.

Finding Number 4 - Inadequate Member Records Maintenance

MSA did not adequately monitor subgrantees to ensure that all documentation,
such as member evaluations, contract stipulations (position descriptions and Dmg-
Free Workplace Policy) and member contracts, were maintained and that
subrecipients received guidance on standard sections contained in member
contracts. As a result, subrecipients did not consistently maintain member
evaluations, member contracts, and adequate contract stipulations.

Specific examples include:

        The records of 16 (out of 165 tested) members were lacking a mid-term
       evaluation. One subgrantee was unaware that evaluations were to be written
       and stated that they were conducted orally. Other subgrantees could not
       locate documentation of evaluations. The records of 20 members (out of 165
       tested) were lacking an end-of-term evaluation. Several members left the
       program, leaving the subgrantee unable to complete an evaluation. As a
       result of this condition, members who had not received an adequate
       evaluation could be accepted as an AmeriCorps member for a second term.
       The contracts of 60 members (out of 165 tested) did not contain all of the
       required attributes of a member contract such as:

           -   ROCA did not have position descriptions contained in its member
               contract
           -   YouthBuild and Northeastern University did not have position
               descriptions or a Drug-Free Workplace Policy in its contracts.

       The records of four members (out of 165 tested) did not contain any member
       contracts. This could result in members not being legally enrolled in the
       program and aware of their commitment. Also, missing contracts and lack of
       information could have led to members being unaware of the Corporation
       policy.

MSA Response
                                              -                                 -
           - with the accuracy of this finding. On the issue of members missing mid-
MSA disagrees
term and end-of-term evaluations, as noted previously in this response, programs receive
training on an annual basis detailing required member documentation and evaluation.
This training specifically includes mid-term and end-of-term evaluations. In addition to
training.
       -, in the Member Files and Data Collection Svstem submitted annuallv since 2003.
each subgrantee must detail their process for collecting and storing the required member
documentation as well as who is responsible and the timeline for completion. This system
is reviewed and monitored by the appropriate MSA program officer. o n site visits, the
system is tested when MSA program officers review 25% or 25 member files. If a
program is out of compliance the MSA program officers return to check 100% of the files
at a mutually agreed upon date and time.

With 3 exceptions, the mid-term evaluation member findings listed above occurred
before the 2003-2004 program year. We believe that this demonstrates the effectiveness
of the improvements that were made in our monitoring systems at that time. Additionally,
the subgrantee that "was unaware that evaluations were to be written and stated that they
were conducted orally" was corrected through program monitoring in 2002 and has
conducted written midterm evaluations since that time. MSA believes that the above
exceptions reflect human error and not a systemic weakness.

Regarding the end-of-term evaluations, with four exceptions the end-of-term evaluations
findings occurred before 2003-2004. MSA believes that the above exceptions reflect
human error and not a systemic weakness. Finally, in three instances (one post 2003-
2004) the program has alternative documentation for members leaving the program. For
two members the documentation notes that the members did not successfully complete
their commitment and would prohibit their enrollment for a second term. The third
member was contacted four times to complete the form and was exited without her end of
term evaluation by the Program Director when she proved unresponsive. Here again this
information, documented in the file, would impact the member's ability to serve a second
term.
ROCA
Regarding member contracts, prior to 03-04, ROCA included a position description in its
Member Application. The signed position description was in some member files, but not
all, because members would freauentlv retain the descri~tionfor their own reference.
When this problem was noted aipart of program monitoring in 2003, the member
contract was rewritten to include an embedded position description with a separate take
away position description for the member. This-contract rema& in use to date and is
Mly compliant.

Northeastern University
Northeastern University has always included a position description and drug-free
workplace policy in its member contract. The 15-page document has "Massachusetts
Promise Fellow Member Contract" written in the footer across every page. The drug-free
workplace policy is page 6 and the position description is the final page. The signature
page accepting the contents of the application and its addendum, however, is located on
page 5. MSA and the program have always considered the pages following the signature
to be part of the member contract as have individual members. In the spirit of continuous
improvement, Northeastern has amended its current contract to include a space for
members to initial that they have read and agree to the position description and program
policies before the signatures in the text of the contract.

YouthBuild Boston
YouthBuild Boston had position descriptions as a separate attachment in 2001-2002 and
2002-2003. In those years, they also required the separate submission of a signed copy of
the drug free workplace policy and the policy was also part of the member handbook.
YouthBuild was not h d e d due to AmeriCorps cuts in 2003-2004. Since 2004-2005,
their contract has included a position description and separate signed drug free
workplace. Due to our monitoring practices, these documents were combined into a fully
compliant single document for the program year 2005-2006, which began July 1,2005
prior to this audit field work but subsequent to the audit time period.

The Member Files and Data Collection system also includes the process for completing
member contracts. Member contracts are monitored during site visits when MSA
program officers review 25% or 25 member files. Individual issues of noncompliance
must be addressed within thirty days. If a program has multiple infractions the MSA
program officers return to check 100% of the files at a mutually agreed upon date and
time. Of the four findings, three occurred before 2003-2004. We believe that this
demonstrates the effectiveness of the improvements that were made in our monitoring
systems at that time and that the single remaining finding reflects human error and not a
systemic weakness. Finally a verbal contract is binding in the Commonwealth of MA. By
reporting for service and receiving their stipends, members are legally enrolled in the
program. They also attended member training where Corporations policies were
communicated.
Therefore MSA disputes 35 of the 100 specific findings, and disagrees with the general
finding number four.

Findine Number 5 - Untimelv Submission of Reports

MSA did not perform adequate monitoring of the subgrantees to ensure that they
submitted reports (FSRs, Progress Reports (PR), and enrollment and exit forms) in
a timely manner. The ineffective monitoring may prevent MSA from achieving
timely report submissions to the Corporation.

Specific examples include:

   .   FSRs or PERs tested were not entered into WBRS by the due dates
       established by MSA. The grantee is required to review, analyze and follow-
       up on subgrantees fiscal and programmatic progress. Based on this
       information, the grantee submits a report to the Corporation as provided for
       by the provisions. Without timely information, the Corporation was unable
       to adequately monitor the status of programs.

   .   The records of 40 members (out of 165 tested) documented that member
       enrollment forms were submitted after the required 30-day deadline.
          - One subrecipient had to wait until members were approved to serve
              at an additional school location. Members began service at the
              primary location, but were not enrolled into WBRS until approval
              from this additional location was obtained; this was a condition of the
              subrecipient receiving the AmeriCorps grant. Funding would not
              have been granted if approval for services at this additional location
              was not obtained.
          - Other subrecipients did not have special circumstances to support the
              late submission of the enrollment forms.

       The records of nine members (out of 165 tested) documented that member
       exit forms were submitted after the required 30-day deadline.

MSA Resvonse
MSA disagrees with this finding. As noted by Kearney and Company on page seven of
this audit report, MSA has a system for ensuring timeiy FSR a n d ~ ~ r e ~ oofkour&~
subgrantees. The implementation of this system as it is written and performed by program
officers is successful, demonstrated by our timely submission of every FSR and GPR to
the Corporation and by the auditor's comments on page 7 in reference to our process.

As part of our system, we require subgrantees to submit quarterly FSRs. This is beyond
the semiannual FSR requirement of the Corporation and allows us to ensure that
subgrantees are on track to make their match and spend their grant in an allowable
manner. MSA submission dates are 15 days before Corporation deadlines to allow
program officers the time necessary to review each FSR and create the aggregate required
by the Corporation. Individual subgrantees are given a one-week grace period, thereafter
the subgrantee is suspended until such time as the report is filed. Suspension means that
no grant payments are made until the suspension is lifted. The FSRs and PR cited in this
report were all submitted to MSA within that time period with the exception of one
program, which took one additional day due to extenuating circumstances.

On the specific issue of enrollment forms, at the beginning of the year each program must
complete a system entitled Member Files and Data Collection. This system details their
inter& process for enrolling members in WBRS and identifies those-responsible for so
doing. MSA also has a system for monitoring timely submission of the enrollments. On
a monthly basis, MSA program officers check that enrollments and timelogs have been
completed on WBRS. If a program is past the 30-day period, they are notified and have
seven days to correct the problem. If the problem is not addressed, the program is
suspended until WBRS is up to date and asked to revise the operational system that
details their process for enrolling members. Finally, programs initial that WBRS is up to
date on the cover sheet of every reimbursement request in order to receive payment.

In response to the finding above, in 24 instances the programs were unable to enter their
enrollment forms on WBRS within the 30-day period because the Grantee Information
Profile had not yet been entered by the corp&tion. It is not possible to enroll members
until this profile has been loaded and only the Corporation is able to do so. This issue was
out of MSA and the programs' control. Once the GIPs were uploaded in WBRS, the
programs submitted their enrollments within 30 days. As noted above, eight instances
were due to negotiation with a placement site. The remaining eight instances of
noncompliance occurred in 2001-2002 before the monitoring system described above was
in place. We believe that this demonstrates the effectiveness of the improvements that
were made in our monitoring systems.

MSA also requires programs to submit a system on exiting members in a timely manner.
Monthly, MSA program officers check that exit documents have been completed on
WBRS as necessary. If a program is past the 30-day period, they are notified and have
seven days to correct the problem. If the problem is not addressed, the program is
suspended until WBRS is up to date and asked to revise the operational system that
details their process for exiting members. Finally, programs initial that WBRS is up to
date on the cover sheet of every reimbursement request in order to receive payment. Of
the nine instances of noncompliance listed above, six occurred before the monitoring
system described above was in place. We believe that this demonstrates the effectiveness
of the improvements that were made in our monitoring systems at that time.

The remaining three instances were members who failed to return to their program sites
or were non responsive to requests fiom program staff. Each of these members has
alternative documentation in their member file exiting them fiom the program.

Therefore MSA disputes 32 of the 54 specific findings, and disagrees with the general
finding number five.
Finding Number 6 - Inadeauate monitor in^ of Financial Management System

MSA failed to perform a self evaluation and an evaluation of their subrecipients'
internal controls over the fmancial management system including written policies
and procedures, payroll processing and payments, and disbursements.

   .   At YouthBuild, our review disclosed that the amount of FICA withheld did
       not amount to 7.65 percent of the total taxable amount. This was true for the
       withholdings of five out of 15 employees and members tested. In all
       instances, the amount withheld was less than the amount required by law;
       thus no additional Federal funds were used. Amounts related to FICA
       withholdings were not in accordance with applicable law.

       YouthBuild did not maintain a financial management system which included
       standard accounting practices, sufficient internal controls, a clear audit trail,
       and written cost allocation procedures. YouthBuild's financial management
       system was not capable of distinguishing expenditures attributable to the
       Corporation grants, identifying costs by budget Line item, or differentiating
       between direct and indirect costs. A new system was implemented on
       November 1,2004. However, the scope of our testing procedures and the
       limited amount of time the system was operational prevented us from
       completing an evaluation of the new system's effectiveness. YouthBuild's
       financial management system did not allow direct costs to be traced from the
       PER back to the original source documentation. Without the ability to easily
       trace general ledger transactions to costs charged to the PER, YouthBuild
       could allow inadmissible costs to be charged to the Corporation.

       MATCH did not have a written accounting policies and procedures manual.
       The lack of a written accounting policies and procedures manual increases
       the risk that similar accounting transactions may be processed in different
       ways instead of being processed following standardized procedures.

   .   MATCH does not maintain the blank check stock in a secure location.
       Unsecured blank checks are more susceptible to theft or loss.

       The Executive Director of MSA has access to the blank check stock and
       check signing authority. This lack of segregation of duties, i.e., the same
       person has access to and the authority to sign blank checks, weakens the
       internal control structure and increases the risk of loss.

MSA Response
We disagree with this finding. MSA does have policies and procedures for ensuring
proper evaluation of subgran&es fiscal controlsand has a risk based fiscal monito&g
strategy. Before selection for funding, each subgrantee's A133 audit is reviewed and
assessed for risk. Subsequent to funding, program officers complete a risk assessment
that includes information on prior grant experience and staff experience with grants
management. Following the rating, MSA program officers notify the program of their
rating and monitoring schedule. Every program is visited at least once during the three
year AmeriCorps cycle. Programs identified as high risk are visited annually.

YouthBuild Boston
Specifically on the issue of FICA withholding, this audit finding was not clarified to us
until an email that was sent on February 13, a week before this response was due. As a
result, we have not been able to investigate the cause. We would like to note, the
combined total of these findings is $26.25 with no individual instance greater than $8.17.

Regarding the lack of a financial management system which includes standard
accounting practices, sufficient internal controls, a clear audit trail, and written cost
allocation procedures: this finding relates to the 2001-2002 and 2002-2003 program
years. YouthBuild Boston has unqualified opinions on their A133 audits for the years
ending 2002 and 2003 from an extremely reputable Boston based auditing firm. They
also have an unqualified opinion on their financial statements as required by the
Government Auditing Standards.

MATCH
We agree that it is essential to have written accounting procedures and policies. In
addition to the fiscal oversight outlined above, MSA requires a copy of subgrantee's
fiscal policies and procedures to be submitted during the onsite monitoring visit. These
policies are reviewed and commented upon in the site visit report. In addition to the visit,
MSA requires programs to submit three written fiscal management systems covering the
following: internal financial management, reimbursement process, and financial
reporting. Programs must detail in each of the three systems their internal process, the
individual responsible, and the timeline for submission. These systems must be submitted
before subgrantees can receive their fist reimbursement.

Prior to the auditors visit, MATCH had not received a site visit with the most current
monitoring tool. Instead, the program and MSA program officer were working to address
start up challenges experienced by the program. These issues have now been resolved and
MSA has created a training and technical assistance plan to put the MATCH program's
fiscal policies and procedures in writing. Additionally, the blank check stock referenced
above is now kept under lock and key.

Based on the independent auditors summary of auditors results, which were reviewed by
MSA program officers prior to funding, the auditors identified no material weaknesses in
internal control over financial reporting.

MSA
Finally, MSA is a small non-profit organization with eight full time staff. Our fiscal
management policies are designed to provide maximum security with limited staff
resources and are reviewed annually. Currently, MSA has three part time fiscal managers
provided by a financial services company. As such, they have access to the accounting
system and payment management system but not to blank check stock. The Chief
Executive Officer, who is bonded, has access to the blank check stock and is a signatory
but is not able to access the accounting system or the payment management system.

Funds for subgrantee reimbursement and expenses incurred directly by MSA are
requested from HHS on a reimbursement basis and checks for those expenses are
immediately disbursed. This minimizes the cash available in MSA accounts. As a final
check on our system, the MSA treasurer reviews an unopened bank statement to check
for irregularities at random intervals throughout the year.

Therefore, MSA disputes two of the nine specific findings, and disagrees with the general
finding number 6.



If you have questions or concerns, I may be reached at 617-542-2544 x228 or
kmcswaink2mass-service.org.
                           Appendix B

Corporation for National and Community Sewice's Response to Report
                                    ~ ~ ~ 1 0 " 6&
                                                 "r;~*~
                                    COMMUNITY
                                    SERVICE=

To:

From:

Cc:           ~lizab&l-dale, Acting ~irecto&eri~orps
              Tory Willson, Audit Resolution Coordinator, Office of the CFO

Date:         February 21,2006

Sub:          Response to OIG Draft Audit Report: Audit of Corporation for National and
              Community Service Grants Awarded to the Massachusetts Service Alliance


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the Massachusetts Service Alliance. The Corporation has also reviewed the response
from the Massachusetts Service Alliance. We are addressing only one issue at this time. We
will respond to all findings and recommendations in our management decision when the final
audit is issued; we have reviewed the findings in detail; and worked with the Commission to
resolve the audit.

As noted in the draft summary, the auditors questioned $12,387 in claimed grant costs because
12 out of 165 member records tested did not have evidence of criminal background checks on
members who were providing service to children. In the Massachusetts service Alliance's
response to the draft audit, they indicated that the programs located proof that background
checks were performed on seven of the 12 members. The Alliance also notes that the remaining
five did not have sustained, direct and unsupervised contact with children. Therefore,
background checks were not conducted on those five members. The Corporation will review this
documentation during audit resolution and follow-up with MSA.

Because the Corporation considers the lack of a criminal background check to be a grants
compliance issue, not a failure to meet statutory eligibility requirements, we will allow
questioned costs that result from this finding. However, while the finding may not result in
disallowed costs, background checks are an important compliance issue and are required for
members who have substantial contact with children and other vulnerable populations during
their term of service. The Corporation is also reviewing its current guidance on background
checks and expects to issue regulations in the near future.

The Corporation will address the remaining questioned costs and other findings during audit
resolution after the audit is issued as final.




                           1201 New York Avenue, NW    *
                                                    Washington, DC 20525
                                                *
                                 202-606-5000 www.nationalsemice.org
                          Senior Corps   * AmeriCorps * Learn and Serve America
